<html>
<title> - IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART II)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                IMPLICATIONS OF A NUCLEAR AGREEMENT WITH 
                               IRAN (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-80

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE
95-512PDF                   WASHINGTON : 2015                        
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea8d9a85aa899f999e828f869ac4898587c4">[email&#160;protected]</a>  

                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Joseph I. Lieberman, co-chair, Iran Task Force, 
  Leadership Council, Foundation for the Defense of Democracies 
  (Former United States Senator).................................     5
General Michael V. Hayden, USAF, retired, principal, Chertoff 
  Group (former Director, Central Intelligence Agency)...........     8
The Honorable R. Nicholas Burns, Roy and Barbara Goodman Family 
  Professor of Diplomacy and International Relations, Belfer 
  Center for Science and International Affairs, John F. Kennedy 
  School of Government, Harvard University (former Under 
  Secretary for Political Affairs, U.S. Department of State).....    16
Ray Takeyh, Ph.D., senior fellow, Council on Foreign Relations...    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Michael V. Hayden, USAF, retired: Prepared statement.....    12
The Honorable R. Nicholas Burns: Prepared statement..............    21
Ray Takeyh, Ph.D.: Prepared statement............................    28

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    91
The Honorable Joseph I. Lieberman: Prepared statement............    92


        IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART II)

                              ----------                              


                         TUESDAY, JULY 14, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today, the committee continues to examine the Obama 
administration's nuclear diplomacy with Iran. We thank our 
witnesses for joining us this morning.
    The administration, of course, has just announced a hugely 
consequential agreement. In testimony before this committee, 
Secretary Kerry told us these negotiations would be used to 
dismantle Iran's nuclear program. That was the goal. Instead, 
this agreement allows Iran to retain a vast enrichment 
capacity, to continue its research and development and, gain an 
industrialized nuclear program once key provisions of this 
agreement begin to expire in as little as 10 years. The 
President told us that Iran does not ``need to have an 
underground, fortified facility like Fordow in order to have a 
peaceful nuclear program.'' Yet, this military complex will now 
stay open.
    While Obama administration officials first told us that 
Iran's missile program would have ``to be addressed'' as part 
of a final agreement, they failed to mention that 
``addressing'' the program means taking restrictions off--we 
are talking here about the I.C.B.M. program that Iran has--
taking those off in just 8 years. As Secretary of Defense 
Carter testified just last week, ``The reason that we want to 
stop Iran from having an I.C.B.M. program is that the `I' in 
I.C.B.M. stands for `intercontinental,' which means having the 
capability of flying from Iran to the United States.'' And as 
we know, countries build I.C.B.M.s for one reason--to deliver 
weapons. And recently in this negotiation--at the very end of 
the negotiation this is what Russia and Iran pushed for--the 
ability for Russia to transfer this technology--this is what 
Russia would like to do--transfer this technology to the 
regime.
    At that same hearing, our top military official gave his 
best military advice: ``Under no circumstances should we 
relieve the pressure on Iran'' when it comes to the arms 
embargo--but that comes off in just 5 years.
    On the critical issue of inspections, just a few months ago 
Secretary of Energy Moniz said that ``We expect to have 
anywhere, anytime access.'' But ``anywhere, anytime'' has 
weakened to something called ``managed access.'' ``Managed 
access,'' more accurately, should be called ``manipulated 
access'' as any process with Russia, China and Iran at the 
table will be treated exactly that way. It will be managed. It 
will be manipulated. The inspection regime will be manipulated 
by those with something to hide and this has been the past 
experience with Iran that has cheated on every agreement so 
far.
    We might feel better if the United States was able to 
permanently constrain Iran's worrying nuclear program. But the 
key restriction--the ability to enrich at high levels--begins 
to expire in as little as 10 years. That is 10 years. Most 
Americans will take three times longer to pay off their 
mortgage. Ten years from now.
    Once these restrictions expire, Iran could enrich on an 
industrial scale--claiming the desire to sell enriched uranium 
on the international market, as France does. Iran could also 
enrich uranium to levels near weapons grade--claiming the 
desire to power a nuclear navy, as Brazil is doing. All these 
activities are permissible under the NPT and all would be 
endorsed by this agreement. Indeed, the President himself--
President Obama said of his own agreement, ``In year '13, '14, 
'15, Iran's breakout times would have shrunk almost down to 
zero.''
    As a result, the U.S. and its allies will be left with no 
effective measures to prevent Iran from initiating an 
accelerated nuclear program to produce the materials needed for 
a nuclear weapon. And Iran surely would be able to speed toward 
a nuclear weapon faster than an international sanctions regime 
could be placed and reestablished on that regime. One 
nonproliferation expert told the committee last week that this 
sunset clause is, in his words, ``a disaster.''
    The essence of this agreement is permanent concessions in 
exchange for temporary benefits, and that is only if Iran 
doesn't cheat, like it has in the past and like North Korea 
cheated. As one witness described to the committee last week, 
the deal ``is in many ways a bet. . . . The bet that the 
administration is taking is that in 10 or 15 years we will have 
a kinder, gentler Iran.''
    Just a few days ago, Iranian President Rouhani joined a 
crowd--a crowd, which if you followed the piece in the New York 
Times, chanting ``Death to America.'' This was their Quds Day 
rally on the weekend and the posters read ``Death to Zionism.'' 
And as Rouhani was walking, this reporter asked the question 
about the nuclear negotiations and President Rouhani said, 
``The future is bright'' as people behind him were chanting, 
``Death to America. Death to America.'' So President Obama has 
decided to place all his chips on the fact that the ``Death to 
America'' chants will soon disappear. This committee has to ask 
itself whether we are willing to roll the dice, too.
    I will now turn to our ranking member for any opening 
comments he may have.
    Mr. Deutch. Thank you, Chairman Royce. I appreciate the 
chairman's continued focus on making sure that this committee 
gets the opportunity to thoroughly discuss and debate the 
merits of this newly announced agreement with Iran.
    I know once the final deal is submitted to Congress the 
chairman and ranking member will move quickly to set up 
briefings and hearings as we move forward toward a vote on the 
deal.
    In the 18 months since the P5+1 began negotiating with Iran 
in an effort to prevent it from acquiring nuclear weapons we 
have had a lot of discussions about centrifuges and stockpiles 
and breakout times and we now know basically what an agreement 
looks like in terms of infrastructure.
    But we still await details as to exactly what kind of 
access IAEA investigators will get, how potential violations 
will be dealt with, how the so-called ``snap back'' mechanism 
will work and what a new U.S. Security Council resolution will 
look like.
    Secretary Kerry and his team have spent an enormous amount 
of time and energy on these negotiations, and I applaud their 
commitment to diplomacy and I appreciate their ability to 
negotiate significant limitations on enrichment and nuclear 
stockpiles.
    I hesitate to speculate on the deal as a whole until we 
receive all of the details. I do have some serious concerns, 
however, about various aspects of the deal which were 
extensively reported from Vienna this week.
    In particular, one, Iran needs to come clean on its past 
nuclear activities, two, its access to all suspected nuclear 
sites, three, the timing of sanctions relief and the impact on 
the region, and four, ensuring that an arms embargo remains in 
place to prevent the spread of weapons to terrorists.
    First, along with most of my colleagues I've been very 
clear from the outset that Iran must come clean on its past 
nuclear weapons work, a demand repeatedly made by the 
administration.
    Yet, as has been the case for years, Iran has been 
unwilling throughout these negotiations to cooperate with the 
IAEA on its parallel investigation into the possible military 
dimensions of its program.
    Iran's intransigence has made it difficult for many of us 
to imagine how we could expect Iran to comply with the terms of 
a deal. If they stonewalled the IAEA for a decade will they 
continue to find ways to do so under the comprehensive deal or 
will a deal make that impossible?
    This is why upholding the integrity of the IAEA's PMD 
investigation is so vital right now. So I will await details as 
to exactly what the new roadmap signed by Iran and the IAEA 
will entail.
    Further, I am concerned about access. We are told this 
agreement is not based on trust. It is based on transparency 
and verification. So I wait to see in greater detail how the 
final agreement deals with resolving IAEA access to suspected 
sites.
    Will we have the access we need or will Iran be able to 
block inspectors? If media reports are correct and one visit to 
Parchin is granted, will that be enough to gather the 
information needed?
    How far have we strayed from the anytime, anywhere 
inspections that the experts had said should be part of any 
deal?
    Third, I remain concerned about the timing and implications 
of sanctions relief. How extensive are the nuclear-related 
steps that Iran has to take in order to receive relief?
    How will stonewalling or suspected cheating on its 
commitments be dealt with and will Iran have access to its 
frozen assets, well over $100 billion, all at once and by what 
date?
    And where does the money go? I know that this was touched 
on last week in Part I of this hearing. Iran's behavior is not 
going to change as part of this agreement. That is something 
that has been acknowledged.
    In fact, Iran's support for nefarious regional actors and 
designated terrorist organizations has the potential to grow 
under any deal, and while it is true that some of the sanctions 
relief will have to go toward fixing domestic economic problems 
one can imagine the havoc that Iran's terror proxies could 
wreak with even $1 billion more. This needs to be something 
that we understand better.
    And that brings me to my fourth and perhaps most troubling 
concern, which emerged as a sticking point in the final days of 
negotiations--the lifting of the U.N. arms embargo.
    Now, I understand that international sanctions are 
intertwined and they are complex, and I understand that there 
is a current disagreement among the P5+1 and Iran as to what 
constitutes a nuclear sanction.
    But it is extraordinarily difficult to imagine that the 
U.N. Security Council resolution that will result from the 
comprehensive agreement will not continue the existing 
restrictions on Iran's ability to export dangerous and military 
hardware to it terror proxies for many years to come.
    Quite frankly, the apparent resolution of this issue in 
some ways is baffling to me. Why do we believe that Iran's 
dangerous support for terror groups will change in 5 years or 
that its desire for ballistic missile technology will wane in 8 
years?
    From the beginning, the administration has said that it is 
dealing with the nuclear issue separate from our other issues 
with this regime, whether meddling in neighboring countries, 
its holding of American citizens or its sponsorship of 
terrorism, which will be dramatically more dangerous when the 
arms embargo is lifted.
    And finally, I want to again raise the issue of the four 
American citizens held or missing in Iran. Jason Rezaian, Saeed 
Abedini, Amir Hekmati and my constituent, Robert Levinson, the 
longest-held American in history.
    Regardless of what transpired in Vienna this week, Iran 
must know that the United States will never stop working for 
the release of our citizens.
    I applaud and I thank the committee for its commitment to 
seeing these innocent Americans returned to their families.
    I appreciate the efforts of our negotiators to raise the 
issue, and members of this committee and all Members of 
Congress should have these Americans in their thoughts as they 
review the terms of this agreement.
    So, Mr. Chairman, I look forward to receiving the details 
this week so that members can begin to evaluate its merits.
    The agreement can't just be judged on what would happen in 
the absence of a deal today or tomorrow or 60 days from now. It 
must also be analyzed by what will happen under an agreement in 
5 years, in 8 years, in 10 years and beyond.
    The measure of this deal will be whether the national 
security interests of our nation and that of our allies will be 
strengthened for decades to come.
    I look forward to a meaningful discussion and analysis of 
these issues in the days and weeks ahead and I yield back.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Deutch.
    This morning we are pleased to be joined by a distinguished 
panel. Senator Lieberman represented Connecticut for 24 years. 
He was chairman of the Homeland Security and Governmental 
Affairs Committee.
    He is currently the co-chair of the Iran Task Force at the 
Foundation for the Defense of Democracies and he is senior 
counsel at the firm Kasowitz Benson Torres & Friedman in New 
York.
    General Michael Hayden is the former director of the 
Central Intelligence Agency. Previously, General Hayden served 
in multiple and other leadership positions including as the 
director of the National Security Agency and principal deputy 
director of national intelligence.
    Ambassador Nick Burns is the Roy and Barbara Goodman Family 
professor of diplomacy and international relations at the 
Harvard Kennedy School of Government.
    He served in the United States Foreign Service for 27 
years, during which time he served as the Under Secretary of 
State for Political Affairs and the Ambassador to multiple 
posts.
    Dr. Ray Takeyh is senior fellow at the Council on Foreign 
Relations. He was previously a senior advisor on Iran at the 
State Department. He has authored two books on Iran.
    So without objection, the witnesses' full prepared 
statements will be made part of the record. Members here will 
have 5 calendar days to submit statements and questions and any 
extraneous material that you might have for the record.
    And we will begin with Senator Lieberman, if you would like 
to summarize, and we will go to questions after your opening 
testimony.

STATEMENT OF THE HONORABLE JOSEPH I. LIEBERMAN, CO-CHAIR, IRAN 
 TASK FORCE, LEADERSHIP COUNCIL, FOUNDATION FOR THE DEFENSE OF 
           DEMOCRACIES (FORMER UNITED STATES SENATOR)

    Mr. Lieberman. Thanks very much, Chairman Royce, 
Congressman Deutch and members of the committee. I am grateful 
for the opportunity to testify before you today at a really 
critical time.
    The negotiation between Iran and the P5+1 has now produced 
an agreement, which will come before you shortly. Each of you 
will have to decide whether to endorse or reject it.
    I, personally, looking back at my 24 years of service in 
Congress, cannot think of a more consequential vote that each 
of you will cast in Congress for the future security of the 
United States and, indeed, the security of the world. And I 
cannot think of a better committee to lead the House of 
Representatives in its review of the proposed agreement with 
Iran because this committee, under the leadership of Chairman 
Royce, Ranking Member Engel and today, Congressman Deutch, has 
built a really strong record of nonpartisanship, repeatedly 
putting the interest of America ahead of the interest of either 
political party.
    If there was ever a time for that kind of nonpartisan 
leadership it is now on this agreement.
    The fact is, Chairman Royce, Congressman Deutch, your 
opening statements give me confidence that is exactly the way 
you will go at this.
    Mr. Chairman, I want first, before I get to my reaction to 
what happened today, to thank President Obama, Secretary Kerry, 
Secretary Moniz and other staff for the extraordinary effort 
they put into these negotiations.
    You will hear in a moment that I have very serious 
questions about the agreement that these negotiations have 
produced. But I have no questions about the sincerity and good 
motivation of the administration in pursuing the negotiations.
    In the time I have had since the agreement was announced a 
few hours ago, and based on the framework agreement that came 
out in Lausanne in April, I have reached the conclusion which 
is that there is much more risk for America and reward for Iran 
than should be in this agreement. It is not the good deal with 
Iran that we all wanted. Let me explain why I reached that 
conclusion based on what I know now.
    I was a member of the United States Senate when the first 
sanctions legislation for Iran was passed nearly 20 years ago. 
I am privileged to play a role in the drafting and passage of 
every subsequent sanctions bill.
    Each of these measures was adopted by overwhelming 
bipartisan majorities in the House and Senate. In each case, 
Democrats and Republicans in Congress came together, despite 
resistance and outright opposition from the executive branch, 
regardless of which party controlled the executive branch at 
the time.
    There is no question in my mind that when we united across 
party lines in Congress to pass these sanctions bills, it was 
with a clear and simple purpose--to prevent Iran, the number-
one state sponsor of terrorism in the world--from ever 
possessing a nuclear weapons capability.
    In fact, key provisions of the legislation we adopted 
explicitly stated this goal. Mr. Chairman, Congressman Deutch, 
members of the committee, this is not what the agreement 
announced today does.
    In fact, what began as an admirable diplomatic effort to 
prevent Iran from developing a nuclear weapons capability 
dissolved into a bilateral negotiation over the scope of that 
capability.
    The agreement announced today temporarily delays but 
ultimately allows Iran to become a nuclear weapons state and, 
indeed, legitimizes Iran's possession of the nuclear 
capabilities that it has built up, much of it covertly, in 
violation of international law and in breach of its obligations 
under the Nonproliferation treaty.
    Mr. Chairman, this is precisely the outcome that for years 
we in Congress fought to prevent. This is precisely what we 
enacted legislative bipartisan sanctions to stop and this is 
the biggest reason why I respectfully, based on what I know 
today, ask you to vote against this proposed agreement.
    For under it, Iran will be granted permanent and total 
relief from nuclear sanctions in exchange for temporary and 
partial limitations on its nuclear projects.
    That is the essence of why I believe this is a bad deal for 
America, a bad deal for Iran's neighbors in the Middle East, 
and a bad deal for the world.
    The rabidly anti-American, anti-Israel, anti-Sunni Muslim 
Islamic Republic of Iran will have nuclear weapons. This 
agreement, if approved, takes Iran's nuclearization, which 
previously had been unacceptable, and makes it inevitable.
    Mr. Chairman, you have talked about the bet here, 
Congressman Deutch also, that this agreement will moderate the 
regime in Iran. This is a bet not based on fact. In fact, it is 
a bet based on hope over experience we have had with Iran.
    We have to judge this country not just by what its 
representatives in the negotiation have said but, really, more 
by what its government has done and is doing.
    In the months and years since negotiations begin with Iran, 
while its Foreign Minister has been negotiating with the P5+1 
and, I might say, charming the international media, the regime 
in Tehran has continued to build up its nuclear weapons 
capabilities, expanded support of radical proxies that threaten 
its Sunni Arab neighbors and Israel, improved its 
intercontinental ballistic missile capacity so its weapons one 
day reach Europe and the United States, and spewed out the most 
vile and violent rhetoric toward America, Israel, Britain and, 
lately, Saudi Arabia.
    The rhetoric would be bad enough, but the Iranian 
Government has acted on that rhetoric, sponsoring repeated 
terrorist attacks that have killed Americans and Israelis, 
Arabs, Muslims, Christians and Jews, from Argentina to Iraq, 
from Saudi Arabia to Syria and a lot of places in between.
    You mentioned the rally, Mr. Chairman, in Tehran last week. 
I would only add that around the same time the editor of the 
Tehran newspaper, Kayhan, who was selected by Iran's Supreme 
Leader and is assumed to reflect his views, wrote that the 
United States ``which currently terrorizes humanity as the sole 
superpower will one fine day cease to be visible on the map of 
the world.'' How can we have any confidence in an agreement 
made with such a government?
    The answer is it is hard, in any case, but the only way we 
can have confidence is if the inspections and verification 
provisions of the agreement are airtight.
    And this is based on the history of Iran deceiving and 
delaying the International Atomic Energy Agency, claiming that 
its inspectors are spies and it is a tool of the United States, 
even though, as we all know, it is actually an agency of the 
United Nations.
    On first look, the inspections provisions in the agreement 
announced today fall far short, dangerously short, of the 
anywhere, anytime access that is needed to have confidence that 
this deal with the Iranian regime will actually be behaved.
    President Obama this morning used the term to describe the 
inspections ``where necessary, when necessary.'' That is a long 
way from anywhere, anytime.
    The specific language of the agreement, which I have just 
gone over this morning, creates a process that can go on for at 
least 2 weeks of negotiation with Iran when the IAEA thinks it 
has reason to inspect something going on and then has an appeal 
process to a higher board.
    The IAEA, in other words, will have to negotiate with Iran 
to gain access for its inspectors, even though Iran has a 
consistent record of refusing timely and reliable access to 
international monitors in the past.
    Mr. Chairman, in summing up--distinguished members of the 
committee--in the days and weeks ahead you will review this 
agreement in detail. You will hear different opinions about it 
and its implications.
    Based on what I know now, I have personally concluded that 
the agreement falls far short of what is needed, which is an 
agreement that reliably and permanently ends Iran's nuclear 
weapons capability in return for an end to the economic 
sanctions against Iran based on its nuclear program.
    I know there will be some who will try to convince Members 
of Congress that if Congress rejects this deal the result will 
be catastrophic.
    Some may try to intimidate and demonize critics of the 
agreement by arguing that a vote against this deal is a vote 
for war.
    Those are false arguments and I urge you to reject them, 
and I cite as evidence that the most powerful measure Congress 
ever adopted against Iran, effectively barring its sale of oil 
to international markets, was undertaken despite explicit 
warnings from administration officials at the time that it 
would collapse the global economy.
    In fact, it opened the door to diplomacy that previously 
had proven impossible. In today's context, rejecting this bad 
deal will not result in war or the collapse of diplomacy. It 
will give the administration a new opportunity to pursue a 
better deal.
    I will say, as a former Member of Congress, I know how 
difficult the following weeks will be for you. You will be 
pushed and pulled by supporters and opponents of this 
agreement.
    All I can say, and you all know it already, in the end the 
best you can do is decide in the privacy of your own conscience 
what you believe is best for the security of the American 
people, including, of course, your constituents.
    Because this is a decision you and we will live with for 
the rest of our lives. This is a vote whose consequences will 
reverberate in the lives of our children, grandchildren and 
beyond.
    I thank you, Mr. Chairman, and I look forward to your 
questions.
    [Mr. Lieberman's prepared statement, submitted after the 
hearing, can be found in the appendix.]
    Chairman Royce. Thank you, Senator.
    General Hayden.

    STATEMENT OF GENERAL MICHAEL V. HAYDEN, USAF, RETIRED, 
      PRINCIPAL, CHERTOFF GROUP (FORMER DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY)

    General Hayden. Thank you, Mr. Chairman, Mr. Deutch, other 
members, for the opportunity to be here today to discuss such 
an important topic and, really, thank you for allowing me to be 
in the company of such distinguished witnesses.
    Mr. Chairman, when I was at the agency Iran was the second-
most discussed topic in the Oval Office, behind only terrorism. 
We discussed a variety of aspects of the Iranian issue, of 
course.
    The Iranian nuclear program was a central issue. But I 
mention that to remind us all that as important as the Iranian 
nuclear question is, it is part of a larger piece. To 
paraphrase Mr. Kissinger, Iran still has to decide whether or 
not it is a country or a cause.
    We have been negotiating for the past 1\1/2\ years on the 
premise that it wants to be a country. But Iran's actions 
suggest that it still considers itself a cause--a revolutionary 
power whose identity, in fact, maybe even its domestic survival 
has to be drawn from a narrative of unrelenting hostility 
between itself as the legitimate agent of Shi'a Islam in the 
rest of the world.
    Now, we put all those other issues aside 2 years ago when 
we decided to isolate and focus on Iran's nuclear ambitions. I 
get that. I understand that decision. Diplomacy is the art of 
the possible, not the art of the ideal.
    During the Bush administration, we too focused on Iran's 
nuclear efforts but we need to understand that nuclear focus 
doesn't make those other realities go away and that even if we 
get to a successful conclusion of nuclear negotiations, those 
other issues remain and, indeed, there is a possibility that 
the nuclear result will make those other issues even more 
difficult to deal with.
    To oversimplify just a little bit, the issue is not just 
Iran's nuclear program. The issue is Iran, and we need to be 
careful that our efforts to resolve this issue doesn't worsen 
the other dimensions of the problem.
    Now, let me focus on the nuclear portfolio per se. If I 
were here with a butcher paper or something and drawing a PERT 
chart as to how do you get from here to there, with there being 
a nuclear weapon on the part of the Iranians, I would have 
three critical paths.
    One path would be delivery vehicles--the Iranian ballistic 
missile program. Another path would be weaponization--that is, 
making a device small enough, rugged enough and confident and 
reliable enough that you would have put it in a nose cone. And 
then the third path is fissile material--the things you need to 
actually have a bomb.
    We have chosen to bet the farm on blocking one path. We 
have chosen to bet our future here on blocking the path toward 
the creation of fissile material. The other two paths--
ballistic missile delivery systems and weaponization--are 
effectively off the table.
    And even here in this one path--fissile material--I think 
we have really reduced our margin for error.
    Mr. Deutch, Mr. Chairman, Senator Lieberman have already 
mentioned when this all began Secretary Kerry was claiming that 
we had not conceded the right of enrichment to the Iranians 
and, of course, we had and that was the premise--the price we 
paid to get the Iranians to the negotiating table.
    Let me just point out, too, that the Iranians claim they 
need this nuclear program for the eventual production of 
electricity. Now, coming from a nation so rich in fossil fuels 
I think we have a right to question that.
    But let me not question that. Let me concede that. Even 
conceding that point does not create a prima facie case for 
Iran to be able to or to be allowed to enrich uranium.
    Today, there are 20 countries around the world that rely on 
nuclear power that do not produce their own fissile material.
    To drive home this point, we have put considerable pressure 
on a responsible and trusted government in South Korea not to 
do what this nuclear agreement allows the Iranians to do.
    Similarly, Mr. Chairman, as you have already mentioned, the 
President said that Iran didn't need the heavy water reactor at 
Arak, the buried facility at Fordow, for a peaceful nuclear 
program.
    And although the agreement suggests these facilities have 
been modified, we need to see the fine print that continue to 
exist.
    Overall, the Iranians get to keep 5,000 centrifuges of an 
older type at Natanz, which the administration says is part of 
a package that always keeps them 12 months away from having 
enough fissile material for a weapon.
    I am concerned about how much R & D--research and 
development--the Iranians will be able to do on centrifuge 
technology. We all have to look at the fine print of the 
agreement.
    But the last public announcement by our side has been the 
phrase ``limited R & D,'' which could mean an awful lot of 
things to many people.
    I am also concerned about our failure to demand an accurate 
accounting of the possible military dimensions of the Iranian 
program.
    Mr. Chairman, this really has special significance. It is 
not just what they may have done in the past to position 
themselves with regard to weaponization. The Iranians have been 
stiffing the IAEA for years on this issue and now we are going 
to rely on the IAEA for verification of this new agreement 
after seemingly having taught the Iranians that if you stiff 
these guys enough the requirement to concede will go away.
    Given past Iranian behavior and deception, will the agency 
be able to conduct anywhere, anytime inspections? That is 
always a concern and already has been well handled.
    I know we have to look at the fine print to see what 
managed inspections are like, Mr. Chairman. But let me give you 
a way that I have begun to think about this.
    Inspections should have been at the technical level. 
Inspections should have been driven by an IAEA decision that 
this international body had a technical reason for visiting 
Facility A, B or C.
    The managed inspection program puts that decision at the 
political level and I just don't see a happy outcome that would 
evolve out of that kind of arrangement.
    There is an awful lot to talk about, Mr. Chairman. I don't 
want to belabor all these issues, some of which have already 
been raised. But I do want to bring up one point.
    In discussing the new agreement, many have tried to bring 
in the pattern of inspections that we agreed with the Soviets 
under the START treaty and the SALT treaty.
    One of the administration's officials said that we don't 
insist on being able to get into every military site because 
the United States of America wouldn't allow anybody to get into 
every site. That is just not appropriate.
    Mr. Chairman, that suggests an equivalency here--the kind 
of equivalency we did have with the Soviets because, after all, 
we were entering into a voluntary arms control agreement with 
them.
    This is Iran trying to get out of the penalty box for 
violating multiple U.N. Security Council resolutions. This 
isn't a neutral playing field. The burden of proof should be on 
the Iranians that they are adhering to an agreement, not on us 
to prove that they are not.
    So, again, as I said, inspections, managed looks at the 
political level, not wise, and this sense of equivalency I 
don't think is an accurate reflection of what is really going 
on here.
    Thank you, Mr. Chairman.
    [The prepared statement of General Hayden follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Chairman Royce. Thank you, General Hayden.
    Ambassador Burns.

 STATEMENT OF THE HONORABLE R. NICHOLAS BURNS, ROY AND BARBARA 
    GOODMAN FAMILY PROFESSOR OF DIPLOMACY AND INTERNATIONAL 
RELATIONS, BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, 
   JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY 
(FORMER UNDER SECRETARY FOR POLITICAL AFFAIRS, U.S. DEPARTMENT 
                           OF STATE)

    Mr. Burns. Thank you, Mr. Chairman, Congressman Deutch, 
members of the committee. Thank you for the invitation to be 
here and I am here with friends and people I respect very much.
    Mr. Chairman, I think we all start from the presumption, 
all of us who have looked at this issue for a long, long time, 
that it is in the national security interests of the United 
States to deny Iran a nuclear weapon.
    Both President Bush and President Obama have taken the 
position they will use any means at our disposal including 
military means to accomplish that.
    Now, the route taken by both the Bush and Obama 
administrations doesn't start there. The Bush administration 
sought negotiations with Iran. Iran turned us down. That led us 
to sanctions.
    The Obama administration, with the help of the Congress 
and, I would say, the leadership of the Congress pushed 
stronger sanctions that really made a difference on the 
Iranians.
    The Obama administration has now come back with a 
negotiated agreement for your consideration. I would say two 
things about it.
    This is among, I think, the most difficult, complex 
agreement that any of us can hope to judge. It is filled with 
very painful tradeoffs. There are risks in acting and following 
this agreement and there are risks in not acting, and I 
certainly agree with Senator Lieberman.
    From my perspective, this will be one of the most 
consequential and important votes that any of the members take 
in your time of office.
    I was just trying to think this morning about our 
diplomatic history. You might have to go back to the League of 
Nations vote in 1920 for an agreement where Congress is going 
to play such a central and directing role as to whether we go 
forward or whether we don't go forward.
    I worked on Iran policy for President Bush and Secretary 
Rice for 3 years as Under Secretary of State. I helped to 
sanction Iran. I believe we have got to contain their threat in 
the Middle East and we have to stop them.
    But I also believe that President Obama's policy is worthy 
of our--of your support. I am going to support it because I 
think it is the best alternative.
    If I could have designed a perfect alternative it would be 
a 100 to 0 victory for the United States and the submission of 
Iran.
    That alternative is not available to the United States, and 
whether we oppose it or whether we support it we have got to 
think in the real world about what the alternatives have been.
    Here is the alternative that President Obama and Secretary 
Kerry have followed. They think that this agreement will 
effectively freeze Iran's nuclear program for the next decade.
    It will deny it a nuclear weapon because it won't have the 
fissile material that Mike Hayden talked about--General 
Hayden--for the next decade.
    It closes out the route toward fissile material. Iraq's--
excuse me, Iran's plutonium reactor at Arak will be effectively 
put offline. The core will be dismantled.
    The spent fuel will be taken out of the country. They won't 
be able to develop a nuclear weapon through plutonium.
    The enrichment program at Fordow and at Natanz--Fordow will 
be closed completely. Natanz, of course, they will still have 
5,000 to 6,000 centrifuges but of a lower power than the 
advanced centrifuges for the next 10 years.
    But their store of enriched uranium will be at 3.67 percent 
at 300 kilograms. Their store of uranium will not be weapons 
grade. They will not have the weapons grade uranium to make a 
nuclear device because of the restrictions at the Natanz plant.
    Right now, the Obama administration has said publically 
that Iran may be 2 to 3 months away from a nuclear weapon.
    With this deal, and there is really no dispute about this, 
for the next 10 years as their program is frozen, Iran will be 
a year away from a nuclear weapon.
    So I think the administration can make a case, whether you 
agree with them or not on the ultimate deal, that the program 
is going to be frozen--the plutonium and uranium enrichment 
programs and that, I think, is a very important attribute of 
this deal.
    Second, Iran will now be subjected to inspections that it 
has never been subjected to before 25 years under the 
additional protocol of IAEA inspections.
    Third, should Iran cheat--I assume they will try, given 
their past record where they have lied to us, to the United 
Nations in the past--then we have the ability to reimpose 
sanctions--Congress would.
    The United States would have the opportunity--any future 
President--to form a coalition much like the present coalition 
to sanction them.
    Fourth, this does give the United States a chance to 
resolve this problem diplomatically, peacefully through a 
tough-minded negotiation. I don't say that lightly because I am 
someone who believes that we should keep the threat of force on 
the table and that any American President would be justified 
using it if we felt Iran was close to breakout, close to a 
nuclear weapon.
    But we are not at that point. No one anywhere in the world 
is contesting that the Iranians are close to a nuclear weapon 
and so the use of force is right now not pertinent to this 
discussion, although it is an option for us in the future.
    If we have a chance to avoid a third major conflict in the 
Middle East since 9/11 and if we can stop Iran in the process I 
think that is a good course for the United States.
    But, Mr. Chairman, let me tell you, I don't think this is a 
perfect deal and I have had trouble as a private citizen trying 
to weigh the risks on both sides and weigh the pros and cons.
    If I were a member, I would want to focus on some of the 
questions that Senator Lieberman and General Hayden have 
already focused on because I agree with their skepticism.
    I would want to look at the fact that the program--Iran's 
program will be suspended and frozen, in effect, in mothballs 
for 10 years. But when that 10 years is over the superstructure 
of the program will be intact.
    Iran would have the theoretical right to build back up a 
plutonium or uranium route to a nuclear weapon. That is a 
weakness of this agreement. That is a tradeoff.
    This was a real-world negotiation where we received some 
benefit--the freezing of their program for 10 years--but that 
program is not being entirely dismantled and we have to 
understand that.
    Second, I think it is important that the IAEA has 25 
years--will have 25 years of insight into Iran's program. But 
will they have a clear line of sight? Will they have unfettered 
access?
    What, in practice, does managed access to a nuclear plant 
mean? I think it means that Iran is going to write some of the 
rules about how its plants are inspected and, certainly, 
questions have to be asked about that as well as about military 
dimensions.
    Third, would we actually be able to reimpose sanctions 
should Iran cheat or fundamentally violate the agreement? None 
of us know because we are talking about a hypothetical 
situation some years, perhaps, into the future.
    But it would require a tough-minded American President, 
whomever we elect in 2016. It would require us to assemble a 
coalition that took 10 years to build.
    I think the Europeans will be with us. I wonder if the 
Russians and Chinese will. So as I look at this honestly, these 
are real tradeoffs.
    This is not a perfectly designed agreement. We had to 
compromise and we had to give and that is where, as General 
Hayden has described and I agree with him, that is where we 
made the compromises.
    But, Mr. Chairman, I would say this. I think the only way 
to look at this is not what is the ideal solution, because the 
ideal solution is not available to us. Is this the best 
alternative--President Obama and Secretary Kerry's route.
    I can think of two other alternatives. One, which a lot of 
people have talked about, is should we have just walked away. 
Should Secretary Kerry, as our lead negotiator, simply said 
this is not good enough? Should he have left the negotiations? 
Should he have withdrawn American support for these 
negotiations?
    We could have done that. But as someone who helped to put 
the P-5 together, as well as the first three U.N. Security 
Council sanctions resolutions in the Bush administration, I 
think I know what would have happened.
    Our coalition, which is global, which contains every major 
country in the world would have frayed and ultimately 
dissolved. Countries would have gone their own way without the 
leadership of the United States.
    I know what would have happened to the sanctions regime and 
that is our leverage against Iran. That is what brought them to 
the table.
    It would have dissipated or dissolved over time because the 
Chinese would want to go for energy contracts and the Indian 
Government would want to import more oil from Iran.
    And even our friends in East Asia, our allies, would want 
to go back to our normal trading relationship.
    So the no-deal option that we walk away and just sanction 
further, the United States can sanction all it wants and I 
respect what Congress has done and it was very important.
    But what got Iran to the table was the global sanctions. It 
was Japan and South Korea and India not buying as much oil and 
gas. It was the European oil embargo. It was the European 
financial sanctions.
    If you walked away and the coalition dissolved, there goes 
the leverage of the sanctions. So for me, if I have to weigh 
that walking out no-deal option versus President Obama's 
option, I favor President Obama's option.
    One more option available to the United States: We could 
have gone directly to the use of military force. General Hayden 
would be a far greater authority than I would on this issue, as 
a military person.
    But I believe the United States has the capacity to 
effectively destroy Iran's civil nuclear facilities. That might 
buy us 3 or 4 years.
    I don't know what the numbers are. That might give us a 
grace period. But you can't bomb the scientific knowledge that 
their engineers and their scientists have.
    They know how to mine uranium. They know how to convert it. 
They know how to enrich it. They know how to assemble a nuclear 
warhead, we think, we fear. And so that military option is 
really not a strategic option.
    It is a tactical option. It buys you time. Well, President 
Obama's option buys us 10 years where we can be reasonably 
assured that their program is frozen.
    So I don't think these other options work for the United 
States in the real world of international politics and 
international diplomacy, and that is why, as I look at the 
alternatives, I think President Obama's is worthy of your 
support and I certainly am going to support him.
    Mr. Chairman, two quick points. At the same time that the 
Obama administration will pursue this very difficult agreement 
with Iran on the nuclear issues, I think we are going to have 
to push back against the Iranians in the Middle East because 
they are on a tear.
    They have become the king maker in Syria. They are the 
most--unfortunately--the most influential country in Iraq. They 
are running arms to Hamas in Gaza, to Hezbollah in Lebanon and 
they are supporting and instigating the revolt of the Houthi 
tribes in Yemen that have torn that country apart.
    If you will, they are making a big play for power in the 
heart of the Sunni world. That is against the interests of all 
of our Arab friends, against Israel and against the United 
States.
    So I think we are in the incongruous position--I certainly 
am--of supporting a nuclear deal and yet hoping and believing 
that President Obama needs to push back through a strong 
coalition with the Arab countries against Iranian power.
    And I would hope that President Obama and the Obama 
administration in general would make up with Israel, would end 
the war of words between the White House and the Israeli Prime 
Minister, would reinforce our military relationship with Israel 
as well as the Gulf States so that we can contain Iranian power 
in the Middle East.
    I think that is a very important imperative that is going--
is racing right alongside the debate on the nuclear issue as we 
speak.
    And finally, let me say, as someone who has served in both 
Democratic and Republican administrations, I would hope that we 
could have a bipartisan debate in our country among citizens 
and, certainly, on Capitol Hill.
    There are obvious differences between the Bush and Obama 
administrations but both sought negotiations. Both wanted to 
have a negotiated outcome. That is what we were aiming for in 
2006 and 2007.
    When Iran denied it to us, we turned to sanctions, thanks 
to the Congress for those sanctions--very important--but we are 
going to need bipartisan unity and support for our President if 
we are going to contain and ultimately defeat this threat by 
Iran that is in front of us.
    Thank you very much.
    [The prepared statement of Mr. Burns follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  ----------                              

    Chairman Royce. Thank you, Ambassador.
    Dr. Takeyh.

   STATEMENT OF RAY TAKEYH, PH.D., SENIOR FELLOW, COUNCIL ON 
                       FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Chairman Royce, Ranking Member 
Deutch, for inviting me back to this particular forum.
    As the junior man on the table, I will stay within my 
allotted time, especially since I don't--Judge Poe usually 
would cut me off. But he is not here right now--the ever-
vigilant Judge Poe, I should say.
    Since the advent, I think, of the Iranian nuclear crisis in 
2002, two principles have guided the United States' negotiating 
position.
    From 2002 to 2013, those two positions were what kind of a 
civilian nuclear program Iran is entitled to and their position 
was given as practical needs and Iran has no practical needs 
for enrichment.
    It should be allowed only a symbolic nuclear program. Such 
a symbolic program would allow the Iranians' leadership to save 
face while at the same time there would be assurances that such 
a symbolic program would not be used for military purposes.
    The second position that guided the United States' policy 
from 2002 to 2013 was that Iran can rejoin the NPT community 
once it established the trust and confidence of the 
international community.
    These were positions of the Obama administration--endorse, 
embrace and persuade the 5+1 countries including Russia and 
China to accept. It is precisely these two principles that the 
administration has jettisoned in 2013 in interim court, 
Lausanne framework and codified in the recent comprehensive 
Joint Plan of Action.
    The notion of practical needs has been replaced by 
something called a 1-year breakout period with acknowledgment 
that has already been made that that 1-year is now static and 
will alter to zero in the concluding stages of this agreement.
    And the notion of trust and confidence of the international 
community has been replaced by a sunset clause whereby an 
arbitrary time clock will determine when Iran can proceed to an 
industrial-sized program--industrial-sized program not that 
dissimilar to Japan, should they want one.
    Japan can be trusted with such technologies. Iran should 
not. Japan doesn't want a bomb. Iran does. All these 
significant issues aside, this deal and its implications have 
to be articulated in the context of the changing nature of 
Islamic Republic's foreign policy.
    It is important to note that the Supreme Leader, Ali 
Khameini, today stands as the most successful Persian 
imperialist in the modern history of Iran.
    In 1970 at the height of his power, the shah never had 
control of Iraq. He never had commanding influence in Syria. 
The Lebanese faction of politics always eluded him and the Gulf 
States ripped off his pretensions.
    Today, as Nick and others have suggested, the Islamic 
Republic has a commanding position in Iraq and deep penetration 
of the deep state. It is the most significant external power in 
Syria.
    Through Hezbollah it had a lethal proxy that can employ not 
just for manipulation Lebanese politics but also in various 
forefronts in the Middle East and, of course, in the Gulf, 
another aspect of America's fractured alliances give Iran ample 
opportunity.
    There is a debate, and it is a rather curious one, what 
would Islamic Republic spend its money on. Imperialism has its 
costs and some of that money undoubtedly will go to the 
tempting of imperial opportunities that are out there.
    But I do believe that the administration has one case. Some 
of the money will undoubtedly be spent on domestic concerns and 
domestic needs.
    Hassan Rouhani belongs to a wing of the Iranian politics 
that have always been interested with what they call the China 
model whereby you can purchase domestic consent by offering 
economic opportunity.
    So in that particular sense, you can make a case and I 
think a rather plausible one that the Rouhani administration 
has been one of the most repressive in the post-revolutionary 
state.
    Iran's burdened citizens will require some sort of a relief 
and along the China model the idea is that by granting them a 
measure of economic rewards you can purchase domestic consent.
    And it's particularly the case because the Islamic 
Republic, in my view, continues to be haunted by the Green 
Revolution of 2009. So to have any hope of succeeding in his 
name, Hassan Rouhani needs an arms control agreement as much as 
Ali Khameini's Islamist imperialism.
    In the end, this deal may not rest on trust but it does 
rest on hope--the hope that a decade from now the Islamic 
Republic will be a different regime, a benign power, at ease 
with global norms, inclined to live at peace with its 
neighbors--a power that is no longer fuel-animated by anti-
Americanism and anti-Zionism that have so long fueled this 
ideological engine.
    After watching the Islamic Republic for two decades in its 
own idiom, in its own language, it is a hope that I have 
difficulty sharing.
    Thank you.
    [The prepared statement of Mr. Takeyh follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Thank you.
    I would like to just go to the question of the arms embargo 
and, you know, this was--Doctor, this was a last minute 
addendum to this agreement, a demand in the negotiation that 
the U.N. lift the arms embargo as it related not just to 
conventional weapons that Iran could better arm Assad and 
Hezbollah with but also goes to this issue of Iran's capability 
to get access to the international technical assistance that it 
seeks to improve their I.C.B.M. program.
    And last week, Secretary of Defense Carter and Chairman of 
the Joint Chiefs of Staff Dempsey both sounded the alarm about 
what this would mean if they get this capability to have an 
I.C.B.M. reach the United States and, clearly, the Russians 
stepped in the last minute of the negotiations. Clearly, 
Russia, wants to transfer this technical assistance to Iran.
    This is the most recent issue that I think caught us by 
surprise and I think the other element of surprise was the 
discovery that in the middle of this negotiation about a month 
ago that Iran had committed to transfer to Hamas not just the 
funding to rebuild the 35 tunnels that had been built before 
under Israel but also a new generation of rockets and weapons 
and then, most recently, the additional discovery or 
announcement that Iran was going to transfer precision guidance 
systems to the 100,000 rockets and missiles that Hezbollah has 
at its disposal aimed right now at Israel but not quite as 
effective, obviously, because of the Iron Dome as they could be 
if they had these precision guidance systems.
    The fact that Iran is willing to do this in the middle of 
the negotiation and to demand the up-front payment of this 
signing bonus which, evidently, they're going to use for this 
purpose is something that really drove the attention here of a 
number of Members of Congress over the last few days as this 
information surfacing.
    And I would like, Ray, your comments on this or, you know, 
General, you might have some insights as well.
    Mr. Takeyh. I mean, Nick can talk about the conventional 
prohibitions in U.N. because they were negotiated in the 2006 
Security Council resolution.
    As I understand it that those embargoes on conventional 
arms have to do with Iran's regional behavior and had nothing 
to do with that nuclear dispute that was ongoing at the time.
    Irrespective of what happens to the arms embargo, and I 
think it's unfortunate that it's not going to be sustained, 
Iran has developed a fairly robust indigenous defense industry 
that additional money that it uses can certainly enhance in 
terms of illicit procurements and so forth.
    So there is always going to be a problem of Iranian 
transference of missile technology in other forums but, 
obviously, under this particular prohibition once it expires 
they have access to more sophisticated knowledge.
    Chairman Royce. Well, and now it will go both ways. So now 
not only will they be able to export from their technology that 
they have developed more easily to their allies but they are 
also going to be able to import from Russia and China the 
technology they need for I.C.B.M.s or surface-to-air weapons 
and so forth.
    Ambassador Burns.
    Mr. Burns. Mr. Chairman, there is no question that the 
Iranians were trying to split the P-5 in the last week of these 
negotiations with this proposal--point one.
    Point two, there was no way we could have accepted this and 
so I was trying to dive through the details, coming over here. 
If we can maintain these U.N. weapons embargoes for both import 
and export for 5 to 8 years that is good for the United States. 
It is painful----
    Chairman Royce. Well, hold on. Five to eight years they--in 
10 years they are going to have the capability for undetectable 
nuclear breakout--you know, 10 years plus under this agreement.
    Why would we want to agree to 5 years lifting and 8 years 
for the Russian transference of that capability? Why would--why 
would the United States sign off on such an agreement, 
Ambassador?
    Mr. Burns. And I am not here, of course, to represent the 
administration. I am just a private citizen. This is a painful 
tradeoff. I would have hoped that we could have defeated it 
completely.
    It's a tradeoff that, apparently, our negotiators felt they 
had to make. So how would we then work once these embargoes are 
lifted 5, 6, 7, 8 years from now?
    We will have to use the power of the United States to work 
on countries to prevent the sale to Iran because Iran's been 
violating the other part of it. They have been selling and 
giving their arms to insurgent groups throughout the Middle 
East.
    Chairman Royce. Let me just ask General Hayden.
    General Hayden. Yes, very briefly, Mr. Chairman, I find it 
incoherent. In my prepared remarks I try to describe going from 
the broad to the specific.
    We have an awful lot of complaints about broad Iranian 
behavior. That is the arms embargo. There are lots of ways of 
stopping the nuclear program. We have dismissed the ballistic 
missile part, focus only on the nuclear.
    So to get Iran down to this agreement we have simply taken 
a whole bunch of things off the table that we legitimately 
could have included.
    Now we get to the agreement and the Iranians are now 
walking back up that ladder and including as concessions to 
them things that they have refused to discuss with us when we 
went into the negotiations.
    I don't understand why the ballistic missile sanctions or 
the conventional weapons sanctions are even in an agreement on 
a nuclear program.
    Chairman Royce. General, as I mentioned in my opening 
statement here, the administration was once on the same page as 
Congress on this issue of ``anywhere, anytime'' inspections.
    But the Iranians pushed back very hard. I remember the 
deputy head of the Iranian Revolutionary Guard Corps boasting 
that ``they will not even be permitted to inspect the most 
normal military site in their dreams.''
    So now we are signing up for something called ``managed 
access'' and a report overnight says that inspectors will get 
access to critical sites only after consultation with the 
Iranians, with the Russians, with China, and other world powers 
in this negotiation.
    We wanted to get this within 24 hours. That was the 
original idea--inspectors could get in within 24 hours. This 
agreement, if we are lucky, would get inspectors access in 24 
days after all of the steps that Iran has insisted on.
    But that is only predicated on the idea that we have 
cooperation from Russia and China in backing the access. So my 
question here, as you said in your testimony, we never believed 
that the uranium at Iran's declared facilities would ever make 
its way into a weapon. We always believed that work would be 
done somewhere else in secret, as you said.
    So how confident are you in a sort of ``managed access'' 
process that includes Iran on the committee that determines 
whether or not we have access?
    General Hayden. Mr. Chairman, I have several issues. I 
already mentioned one about the conventional arms. Snap back 
sanctions--I am not sure how that happens.
    But this is the one I am most concerned about because, 
again, we have eliminated our margin for error. It is all about 
fissile material. So a couple of just very core points.
    Number one, I would never come to you and tell you that 
American national technical means will be sufficient for 
verifying this agreement. Without an invasive inspection 
regime, I would not while I'm in government or now tell you 
it's okay, we will know enough to give you sufficient warning.
    So that really puts the weight of effort on the IAEA's 
ability to go anywhere at any time. As I suggested in my 
remarks, Mr. Chairman, we have taken that from the technical 
level that this international body has an issue. It just needs 
to resolve. We have taken it from the technical level and put 
it at the political level and I just think that is a formula 
for chaos, obfuscation, ambiguity, doubt and finally, we are 
just going to be able to tell you for sure where the Iranians 
are.
    Chairman Royce. Thank you.
    Mr. Lieberman, final comments.
    Mr. Lieberman. Thanks, Mr. Chairman.
    Very briefly, this question really, in my opinion, 
highlights the greatest specific weakness of the agreement 
announced today. I mean, we are dealing with a country that has 
proven over and over again that they will not play by 
international rules.
    They have constantly deceived and delayed international 
inspectors from the United Nations, not from the United States.
    So now we are taking a risk of making this trade where we 
end sanctions on them in return for them essentially 
temporarily freezing their nuclear program if they, for the 
first time in the last three decades, actually do honestly what 
they say they will do.
    And the one guarantee or hope that we could have that they 
would do it was the anytime, anywhere airtight inspections. The 
agreement that came out today is the greatest disappointment in 
this regard because it is--I mean, basically it sets a highly 
bureaucratic process that goes at least 21 days during which 
Iran can remove anything covert and in violation of the 
agreement that they want to.
    So I think this is the point--I urge members of this 
committee, Members of Congress, focus in on the section of this 
agreement on access. This is one that Iran won hands down and 
the consequences for this overall agreement are really 
devastating.
    Chairman Royce. Thank you, Senator.
    Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    First, I want to thank the witnesses for a really 
thoughtful presentation and I think the establishment of a 
really important tone for what I hope will be a very meaningful 
and serious discussion over the coming weeks and months about 
this crucial vote.
    And I raised earlier my concern about access, Mr. Chairman, 
and I appreciate the exchange that just took place. But, 
Ambassador Burns, I would like to--I would like to ask you, you 
walked through--I think you gave an excellent presentation on 
what our negotiators were able to accomplish and the tradeoffs 
that they needed to make and the skepticism that you have about 
some of what is in this agreement.
    And I want to focus on one in particular. The goal in all 
of this--the goal of diplomacy is to reach--in reaching a 
diplomatic solution--is to reach a peaceful solution so as to 
avoid the use of military force.
    And what I am trying to grapple with as we look at this--as 
we get into the details of this agreement--is what that looks 
like over time. Initially, you said that it's really important 
that at the same time that we move forward with this nuclear 
deal that we push back against Iranians in the Middle East and 
you detailed the many ways in which they have looked to exert 
their influence throughout the region, the spread of their 
terrorist infrastructure.
    And I would ask, getting back to the issue of resources, 
when they satisfy the terms of their nuclear-related conditions 
and have access to their frozen assets, whether it is $1 
billion or $50 billion, if we acknowledge, as Dr. Takeyh said, 
that they are going to invest in their own economy but, 
clearly, some portion of the money is going to be used to 
support what they are doing in the region.
    If the goal is peace short term, is it likely that the 
infusion of additional money is going to lead to less peace and 
more violence through their terror proxies?
    Mr. Burns. Thank you very much, Mr. Deutch.
    I would say that the goal here for the last 10 years has 
been to deny them a nuclear weapon through diplomatic means, a 
negotiated solution, if possible and if not we resort to 
military means.
    I think that is what both the Bush and Obama 
administrations have tried to do. So yes, it is a peaceful 
solution but it is one that is in our interest, where we think 
we earned enough at the negotiating table so that it is worth 
doing.
    That is how I understand what President Obama's logic is 
here and that is why I support it. You have asked a good 
question.
    The problem is that we are dealing with two different 
Iranian governments. We have the, I think, genuinely reformist 
in their context--Prime Minister Hassan Rouhani, and a genuine 
reformer in their context in Javad Zarif, the Foreign Minister. 
That is the veneer--the government we have been dealing with in 
Vienna.
    But there is another government and that is Qassem 
Soleimani, the commander of the Iranian Revolutionary Guard 
Corps, and that is a hard-bitten cynical aggressive assertive 
violent organization. They are the people pushing in on the 
Middle East.
    And so I assume, as Dr. Takeyh, Ray, does that some of the 
money from sanctions relief is going to go to economic 
improvements because they have got terrible political and 
economic problems at home.
    They are going to have to rebuild the infrastructure of 
that country that has withered away under sanctions. Some of it 
is going to go into arms and to supporting terrorist groups.
    And so at the same time that it is, I think, in our 
interest to pursue the nuclear agreement it is definitely in 
our interest to, I think, strengthen our coalition with Israel 
and the Arab countries and to push back on the Iranians.
    Mr. Deutch. So let me ask it this way. You talked about two 
different governments. Have we been--have we spent all of this 
time negotiating with one to get to an agreement only to see 
that government then hand off responsibility, going forward, to 
the other government that is wreaking havoc throughout the 
region? Dr. Takeyh, let me ask you then.
    Mr. Takeyh. I will touch on this in the following way. I 
often hear that you can transact an arms control agreement and 
maintain your pressure on Iran. I am not sure if that is 
possible, and if you want to bring out the Soviet-American 
experience I am happy to go into that as well.
    The principal means that the United States tries to 
discipline Iran has been through economic sanctions. We never 
use military force against them and so on.
    This agreement stipulates that over a period of 10 years 
the United States will unwind its principal course of 
instruments, so a Central Bank sanction.
    In this agreement, Central Bank sanctions are to be waived. 
Is that terrorism sanctions? Is that a regression sanction? Is 
that a human rights sanction?
    It is a sanction that is going to be waived. The course of 
menu that the United States has for doing what Nick Burns 
wanted to do--contain Iran--is going to lessen. It is going to 
diminish.
    Soviet-American--the era of arms control in Soviet-American 
relations was 1973 arms control agreement, ADM, SALT I, SALT 
II. It was also one of the most aggressive decades in Soviet 
history, culminating in an unprecedented event--invasion of a 
country outside the perimeter of Soviet influence, Afghanistan.
    Countries that are--revolutionary countries that are a 
beneficiary of arms control agreements tend to be more 
aggressive and the ability of the United States to enforce, 
contain, reverse their aggression tends to diminish.
    Mr. Deutch. So just, finally, Dr. Takeyh, I just want to 
make sure I understand. The reference to our negotiations with 
the Soviet--negotiation of arms control treaties with the 
negotiations--you suggest we should view more as a warning sign 
than----
    Mr. Takeyh. Yes. I challenge the thesis that you can 
maintain an arms control agreement and resist aggression by a 
revolutionary state.
    Mr. Deutch. Thank you, Mr. Chairman.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
would just like to remind my good friend, Ambassador Burns, 
that while he says that there are two governments--Rouhani and 
the hardliners--both were very much active just this past 
Friday when they were chanting ``Death to America. Death to 
Israel.''
    So we like to talk about these two separate entities--the 
hardliners and the moderates. They have one goal in mind and 
they say it--``Death to America. Death to Israel.'' But we 
ignore that.
    But according to reports, the White House seems to have 
caved on almost every one of Iran's demands, blowing past its 
own red lines on enrichment, on centrifuges, on verifications, 
on inspections, on sanctions relief and on coming clean on past 
nuclear ambitions and military dimensions.
    And along the way the administration has made excuse after 
excuse, justifying every Iranian violation of this interim deal 
in order to continue negotiations providing billions of dollars 
in sanctions relief and is set to provide billions more.
    And now we know that Iran--what will it do with its 
additional sanctions relief and the influx of international 
investment that it is going to receive from this deal?
    It is going to continue funding its hegemonic ambitions 
throughout the Middle East, its support for terrorism 
throughout the world, just as it has been doing in Lebanon, in 
Syria, in Yemen and Iraq.
    And as reported, it is clear that this deal is a far cry 
from every red line that the White House itself imposed and it 
is a lower threshold than the six U.N. Security Council 
resolutions.
    And I look back on and read these resolutions and I think 
wow, that is like a fairy tale, once upon a time the world 
powers got together and said this is what we are going to 
demand.
    The administration kept lowering the bar time and time 
again, defending violations of the Iranians every step of the 
way, going legacy shopping--here is another item off the shelf, 
the Iranian nuclear deal.
    People will be worried about whatever else is going on in 
the music industry and in the film industry. Nobody is going to 
pay attention. Let us look at the shiny keys.
    The administration has also reportedly said that it would 
only lift nuclear-related sanctions even though officials would 
never describe exactly how that was defined. But now reports 
indicate that the administration has caved to the Iranian claim 
that all the sanctions are nuclear related.
    Do you believe that the U.S. and the U.N. should be lifting 
sanctions imposed on Iran for its human rights record, its 
ballistic missile program, its support for terrorism including 
the arms embargo?
    And following up on Chairman Royce's exact point, General 
Hayden has pointed out that the IAEA must be allowed to inspect 
these suspect locations--military sites, et cetera.
    But you had told us and your colleagues believe that 
weaponization would never occur at declared facilities. It 
would be done in the secret facilities. It is now being 
reported that the deal would allow suspect activities at 
suspect sites to have access only after the P5+1 consultation 
with the Iranians.
    Secretary Kerry has stated that inspecting Iran's military 
sites, coming clean on possible military dimensions isn't even 
necessary because the U.S. has full knowledge of Iran's 
activity.
    But many in the intelligence community including DIA 
Director, former DIA Director Michael Flynn, have argued that 
their real limits on U.S. intelligence in Iran makes this 
impossible.
    How can we trust Iran to give U.N. inspectors access to 
suspect sites after consultation with P5+1 countries? How hard 
is it to gather intelligence in Iran? How can we have full 
knowledge of Iran's activities without access to all these 
sites.
    And finally, Mr. Chairman, many supporters of the Iran deal 
have been floating the fantastical idea that Iran will change 
its behavior as a result of this agreement, become a better 
neighbor in a more stable Middle East.
    How will lifting the sanctions and influx of new money from 
sanctions relief change Iran's involvement and influence 
throughout the Middle East? It will have more money to be 
involved in its hegemonic ambitions.
    There is not enough time to answer all of the questions 
that I have and not only these sanctions that the U.N. 
supported once upon a time. We are done with that. We might as 
well just rip that one up. That is not happening.
    And what about our U.S. sanctions? You know, Mr. Chairman, 
we talk about what sanctions we will lift. But there are some 
within our control. But there are so many executive order 
sanctions that the President can lift, so many provisions that 
he can waive.
    I know that I am out of time but I am greatly saddened, 
sickened and frustrated over this deal. Thank you, Mr. 
Chairman.
    Chairman Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Thank you.
    Let me, first, set the record straight. The sanctions, 
especially the secondary sanctions, are the only reason that 
Iran made any concessions at all.
    Those sanctions were imposed by Congress over the objection 
of the executive branch. For 30 years, Congress had it right. 
The executive branch had it wrong except for those occasions 
when the House had it right and sent bills over to the Senate 
and then the President blocked them in the Senate.
    I am disappointed in this deal for all the reasons that 
have been brought up. The arms embargo was not a nuclear 
sanction yet it is being waived.
    The Iran Sanctions Act will be waived even though there are 
basically nine reasons recited in the act as to why we imposed 
it, and only one of them is nuclear. This sanctions relief is 
so complete that we are even going to import things from Iran--
not oil but only the things that we don't need and they can't 
sell to anybody else.
    Dr. Takeyh, I think you're right in saying they are going 
to spend a good chunk of this money that they are going to get 
for domestic purposes.
    But in addition, they will spend it on graft and 
corruption. They are good at that. They are going to kill a lot 
of Sunnis, some of who deserve it and many of whom do not, and 
then they will have a few brilliant at least left over to kill 
Americans, Israelis and work other mischief.
    A number of people have talked about the hope--that we are 
going to see a change in the government. Keep in mind we impose 
sanctions to change the government on the theory that if you 
deprive a government and its people of economic benefit you put 
pressure on them to change.
    Now we are going to shower them with money. Okay, it is 
their own money. But in any case, they are going to get--
economic benefit is usually not the way to cause a government 
to lose its grip on power.
    General Hayden brings up missiles. I will simply point out 
that you can smuggle a nuclear weapon inside a bale of 
marijuana. It is not the classy way to do it. Obviously, Iran 
wants missiles--intercontinental ballistic missiles--and they 
have only one reason for creating them and that is to deliver 
nuclear weapons.
    Political pundits all over the various channels are all 
asking is it a good deal--did Obama do a good job. That is 
their job. They are political pundits. They can be politicians 
or politician wannabes.
    We are here in the real world. We have got a disappointing 
deal that has the full support not only of the American 
President but also of the P5+1.
    Imagine us going on a codel to Italy and telling them that 
Eni should not invest in Iranian oil fields even though 
President Obama thinks they should. We would have good wine but 
I don't think we would achieve our purpose.
    So we are in the real world. Senator Lieberman points out 
that we can endorse or reject this agreement. I agree with you 
except there is something else we could do. We could refuse to 
endorse it and refuse to reject it, which is probably what we 
are going to do.
    But I should mention this deal does have some good points. 
The good points are in the first year. Ninety percent of the 
stockpiles are being shipped out. Two-thirds of the centrifuges 
are being mothballed.
    So if we don't take any action in the first year we get the 
benefits and the detriments of the first year of the deal. The 
10th year of the deal is absolutely terrible. Iran has free 
access to 10 times as many centrifuges or 100 times as many 
centrifuges, each 10 times more efficient than the ones they've 
developed so far.
    And so I think our focus needs to be what do we do to 
prevent year 10. We can pass a resolution. We could--we could 
bring up a resolution of approval.
    It would be voted down overwhelmingly and then in the 
future Congresses and Presidents would be free to take action 
hopefully before year 10.
    That would be the strongest statement against the 
agreement. What is more likely to happen, unfortunately, is we 
will have a resolution of disapproval. It will pass. It will be 
vetoed. The veto is likely to be sustained. I think it will be 
sustained.
    And so we reach the same position which is Congress 
declares that it doesn't like the agreement, doesn't approve 
the agreement. We simply do so in the weakest and most pitiful 
way, the final vote being a victory for those who support the 
agreement when we don't get two-thirds to override.
    So I think this deal is going to go into force. What I 
would like, and I realize I have left little time--hopefully, 
Chairman will be indulgent--but what advice do you give 
Presidents next decade as to how to prevent Iran from having an 
industrial-size enrichment program where, in the words of 
President Obama, their breakout time would be almost zero.
    I will start with General Hayden.
    General Hayden. I am sorry, Mr. Chairman. I don't have a 
good answer to that question. This deal guarantees the reality 
you just----
    Mr. Sherman. Well, this deal is not binding on the American 
people or future American Presidents. So let us say Iran kind 
of lives within the deal for the next 5 years, is economically 
stronger.
    Another President can say all options are on the table. 
What can a President do to make sure that this terrible year 10 
does not go into force? Any other witness have a response?
    Senator Lieberman.
    Mr. Lieberman. Thanks, Congressman Sherman. The first thing 
I want to say is, respectfully, offer a somewhat different 
viewpoint from the outside about what will happen here in 
Congress.
    I am not prepared to say, based on conversations I have had 
with members of both chambers in both parties, that this 
agreement will be approved or disapproved and a Presidential 
veto will not be overridden.
    I think people's minds are open. People are concerned. They 
are going to look at the agreement. I myself have said that 
whether Congress would override a veto by the President would 
depend on the specific terms of the agreement and now we have 
seen the agreement and the fact that it legitimizes Iran 
eventually as a nuclear weapons power and that even more 
important in the first instance the access, the inspections 
provisions are full of holes and don't give us any hope that 
this country which was constantly cheated in its international 
agreements will abide by the agreement here.
    So I think it's definitely possible that this agreement 
will be rejected by Congress and a President's veto overridden.
    And to me that would be the best of all results. If it is 
not, the latitude of future Presidents, I suppose, will be 
expanded if there is an initial rejection of the agreement and 
not the President vetoes it and the veto is not overridden 
because a future President can look back and reopen 
negotiations, perhaps even ask for a reimposition of sanctions 
based on Iranian behavior and based on a premise that Congress 
will have set, which is that a majority of members of both 
houses voted to--and then the Senate will take 60--voted to 
reject the agreement.
    Mr. Takeyh. And I would just say one thing about this, 
Congressman Sherman. Congressman Sherman, on Page 3 of this 
agreement it says upon expiration Iran will be treated in the 
same manner as any other non-nuclear state party to NPT. That 
is Japan. You don't like that phrase, you have to renegotiate 
it out of this agreement.
    Mr. Sherman. Yes, and you have to have a President who 
demands that and puts all options on the table.
    Mr. Takeyh. I do think that one path would be, and 
unfortunately it's not in this agreement--it has to be 
renegotiated--is to suggest that after 10 years all the parties 
to this agreement, 5+1 and Iran, will vote whether to extend 
the restrictions.
    There is a precedent for that. It is called the NPT. 
Recently, when NPT expired all members voted after 25 years to 
actually extend its particular provisions permanently. That has 
to be renegotiated in this particular agreement.
    Mr. Burns. The answer to your question, in my view, is that 
President Obama and his successor do three things--vigilance on 
inspections, number one--number two, maintain a coalition to 
reimpose sanctions if necessary.
    That is possible although difficult. And three, retain the 
right to use military force if necessary. There is a strategy 
here where this agreement can be implemented successfully.
    Chairman Royce. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you for holding this extraordinarily timely hearing 
and thank you for our distinguished witnesses.
    You know, not only has the Iranian Government just 
orchestrated death to America demonstrations just a few days 
ago but they continue to hold Americans--Pastor Saeed Abedini, 
Amir Hekmati, Jason Rezaian, and Robert Levinson. We have had 
hearings on that and they still are incarcerated, subjected to 
cruel treatment by this regime. And now a deal with them?
    Senator Lieberman, I think your comments about how this 
falls far short, more risk to America--Ambassador Burns, you 
mentioned that it's not a perfect deal.
    Who expected a perfect deal? That is almost like a straw 
man argument, with all due respect. We hoped for a better deal 
where other issues like ballistic missiles, the whole issue of 
enrichment, which always was a foundational premise of a deal, 
they're off the table and now there will be enrichment allowed. 
And again, I think that was a major, major mistake.
    In a statement of what I consider to be bad faith, 
President Obama vowed to veto, to block any congressional move 
to block this agreement.
    This is day one. He is already talking veto. If it is such 
a good deal, why not persuade Congress and, by extension, the 
American people about its contents? Instead veto card goes 
right up--red card. It is not going to go forward.
    Managed access--one of several Achilles' heels--how is that 
defined? How does that apply to suspected military sites on a 
regional nuclear arms race?
    We all want peace and nuclear weapons are the antithesis of 
peace. Will this begin or foment a nuclear arms race in the 
region? Perhaps Senator Lieberman, you could touch on that.
    Ambassador Burns, you talked about how the deal buys us 10 
years. Well, if Iran is newly infused with cash and the 
sanctions were not aggressively or as aggressively implemented 
as they could there are always some caveats that were allowed 
including oil to China, which was a lifeline. Now we have a 
situation where they are going to get huge infusions of cash, 
which will hurt, obviously, the region.
    It will be a multiplier effect--fourth multiplier for 
terrorism. That is a very serious problem. The existential 
threat to Israel, you know, we all know what Netanyahu said--an 
historic mistake for the world. Perhaps you might want to 
comment on that.
    Let me ask you also, one of the key questions is whether or 
not the Obama administration and the P5+1 partners can be 
trusted to punish Iran or even proactively acknowledge Iranian 
violations of the agreement as they are likely to occur. What 
will happen or are we going to submit it to a committee and 
nothing happens? Senator Lieberman.
    Mr. Lieberman. Thanks very much, Congressman Smith.
    So let me just respond to the question about 
Nonproliferation, and this is going to go be an ironic and, I 
think, painful result which is that an agreement presumably to 
reduce the presence of nuclear weapons in the Middle East, 
because it eventually allows a radical state like Iran to get 
nuclear weapons, will in fact encourage other powers within the 
Middle East to invest in nuclear weapons capability and that is 
a--that makes the Middle East, which is already boiling with 
various kinds of conflict, even more literally explosive.
    Look, to Saudi officials within the Saudi Government have 
already said to people if an agreement between the P5+1 and 
Iran enables Iran to become a nuclear weapons power they are 
not going to wait until that happens.
    They are going to begin to build up their own capacity for 
nuclear weapons. So the fact that--I looked at this in my 
opening statement from the point of view of America.
    I said this agreement has much more risk for America and 
much more reward for Iran than it should. It's not the good 
deal that we all wanted. But governments in the Middle East 
area also making the same calculation throughout the Arab world 
and, of course, Israel and they are going to take actions based 
on that calculation.
    If we think it's a bad deal I think they are going to think 
it is a terrible deal because it is their neighborhood and the 
result will be exactly the opposite of what was hoped for here, 
which is a more peaceful Middle East. It is going to be a much 
more violent and potentially explosive Middle East.
    Mr. Smith. General Hayden.
    General Hayden. Very briefly, Mr. Smith, the more the 
administration argues it is this deal or a vote for war the 
more you take off the table the ability of the United States to 
use military power to coerce the Iranians.
    I don't think anyone believes that is a realistic option at 
the moment. In fact, I don't think they believe that for more 
than a year or 2 going back.
    And so that does actually weaken our position in order to 
get the kind of behavior we want from the Iranians.
    Mr. Smith. Let me just very briefly ask about in the report 
itself--this is the actual agreement, although there are 
annexes, apparently, that none of us have seen yet. It says 
Iran intends to ship out all spent fuel for all future and 
present power and research nuclear reactors. It says intends. 
Doesn't say requires. Are there requirements in this for that? 
Intends--I mean, that is pretty weak.
    Mr. Burns. I understand it's a requirement.
    Mr. Smith. Then why would they put ``intends'' in the text 
of the agreement?
    Mr. Burns. I don't know. But I understand it's a 
requirement. It's part of the deal.
    Mr. Lieberman. I'd say it is a good question, Mr. Smith, 
and one that I am sure you and the committee will get answered 
when the administration comes before you to support this.
    Mr. Smith. Thank you. Thank you, Mr. Chair.
    Chairman Royce. Okay. We go to Mr. Gregory Meeks of New 
York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me first ask, I was listening to Ambassador Burns' 
testimony and during his testimony one of the things that he 
highlighted was if the United States had walked away--if we 
would walk away and we just said no and the other partners were 
trying to strike a deal, so I guess my first question maybe I 
will ask it to General Hayden: Do you think that we should walk 
away even if that meant the dissolution of the P5+1 and the 
unity that we have had for both the last 20 months? Would you 
walk away from such a deal?
    General Hayden. Mr. Meeks, I think what's happened is if we 
did that today it would dissolve the unity of the P5+1 and we 
would be blamed for it. But that is a corner we have painted 
ourselves into by accepting the agreement.
    Mr. Meeks. So right now, though, you would agree then it 
would make it quite difficult to hold the coalition together.
    If we walked away we would get blamed and so therefore the 
sanctions that have brought Iran to agree to negotiations when 
I think it was also Ambassador Burns' testimony that the Bush 
administration tried to get Iran to agree to negotiations and 
they would not at that time.
    So there has been a tremendous--there has been a change 
from what took place at the end of the Bush administration 
because we didn't have this outside unity with the P5+1 and if 
we did not have that--now, that could relieve some of the 
pressure on Iran and for me the only thing that I am looking at 
in these negations is what is the opportunity to stop Iran from 
having a nuclear weapon?
    General Hayden. I understand perfectly. I think the 
Russians and the Chinese peel off immediately because they 
didn't want to be there in the first place and it was actually 
quite a high level of skill to get them into the circle to 
pressure the Iranians.
    I think there is greater hope with the EU, the French and 
the British although, again, we have painted ourselves into a 
corner by accepting the things we are questioning now and for 
us to undo those would make it very difficult----
    Mr. Meeks. Well, the problem is, which I intend to find 
out, is, you know, while the negotiations were going and who 
was saying what to who, you know, we weren't in the room. So 
how that negotiations took place and who was demanding what 
within the P5+1 becomes important.
    I think it is important for Members of Congress before we 
make a decision is to try to talk to our colleagues in the P5+1 
to find out what their feelings are, to find out where they are 
on this and what's important.
    It is important to talk to scientists, not just the 
politics of it, but talk to IAEA, to go to Vienna. I would 
suggest that members of this committee travel to Vienna and 
talk to the IAEA and talk to scientists to see if what is in 
place in this agreement can do the inspections. Would that 
prevent, in their opinion as scientists, not politically but as 
scientists and as much as we can because from my viewpoint, you 
know, having had--and I agree with Senator Lieberman--this is a 
very important vote and I can't leave it in a vacuum because I 
had another important vote and that was back when we decided, 
you know, was talking about Iraq and there was questions then 
of whether or not we should have diplomatic relations--should 
we debate, should we go further, should we have verification. 
And what happened at that particular point we said no. There 
was imminent danger of Iraq having weapons of mass destruction.
    They had them. And I can remember, you know, the case went 
to the U.N. We took the case to the U.N. that there were these 
weapons.
    And we are still--I don't want to go back but we are 
still--I think we should learn a lesson because we are still 
paying for that when we didn't do everything that we could 
first because if we did everything that we did first and they 
still had weapons we could have done what we did anyways.
    And so here we are again with the opportunity and I agree 
that this is not perfect. I don't know any perfect bill that 
has ever been made in this United States Congress, ever, in the 
history of our country--not one. So I am not looking for a 
perfect bill.
    General Hayden. No, no. I agree. The correct question--I 
think you've just framed it--is this deal good enough that we 
should avoid sliding from that position into a position that 
any deal is better than no deal.
    Mr. Meeks. I agree. But we ought to also keep in context 
that we are not dealing by ourselves or doing it unilaterally.
    Everything that I hear most saying is just us. Forget about 
the other five partners to this deal. This is what--there is 
other when you have negotiations and I think that leadership, 
the leadership keeping this group together that is leadership 
so that we can get to this point because otherwise we don't get 
here and we don't have any choices.
    This at least gives us a choice, a chance, and shouldn't we 
at least look at it and talk to scientists? I mean, this bill 
just was struck this morning, for God's sake. We haven't talked 
to any scientists. We haven't gone to the IAEA to see what 
they've done. We haven't gone to Vienna. We haven't talked to 
our partners in this negotiation.
    That is our responsibility as Congress, don't you think, as 
opposed to us just making a decision like today what we are 
going to do?
    General Hayden. No, that is--I think the position all of us 
have here is the fine print here really matters and there is 
little or no margin for error.
    Chairman Royce. Let us--shall we go to Mr. Dana Rohrabacher 
of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
again thank you, Mr. Chairman, and Ranking Member Engel, who is 
not with us today. But both of you provide such great 
leadership on this issue and other issues of great 
significance.
    Let us note that the agreement that was being discussed 
today is being held with a government entity that holds four 
Americans illegally hostage.
    Let me note that my staff is preparing legislation that 
would permit our President to take non-diplomatic Iranian 
officials into custody until their government and their clique 
returns these Americans who they are holding illegally.
    Now, of course, we won't do that because we don't want to 
make the Iranian mullah regime angry by doing something like 
that. In fact, we have refrained.
    The mullahs have already won a great deal by this elongated 
negotiation because for all of these years we have been 
refraining from supporting the democratic elements in Iran 
against the mullahs for fear that it would upset the 
negotiations over the nuclear deal.
    So we have already been a loser even before this supposed 
agreement.
    What I would like to ask does anyone on the panel know 
whether or not this agreement includes an Iranian agreement not 
to obtain a nuclear weapon from another source rather than 
building one their own?
    Mr. Takeyh. I think this agreement stipulates that Iran 
will be a member of the NPT and as a member of NPT it has 
foregone, presumably, a nuclear weapons option
    Mr. Rohrabacher. Okay. So the answer is yes, part of this 
agreement is that the Iranians have agreed not to obtain a 
nuclear weapon from someone else?
    Mr. Takeyh. It says Iran will become a member of the NPT in 
good--if it becomes a member of NPT in good standing then it 
foregoes the option of actually having a nuclear weapon.
    It doesn't specify the source of that. But it essentially 
forecloses the option as a matter of principle.
    Mr. Lieberman. Mr. Rohrabacher, if I may just add----
    Mr. Rohrabacher. Yes.
    Mr. Lieberman [continuing]. It seems to me that Iran has 
developed a lot of the nuclear capability that it has today in 
violation of its obligations under the Nonproliferation Treaty. 
So I am just offering that as more evidence that--Dr. Takeyh is 
right, of course.
    They shouldn't do this under the NPT but they violated the 
NPT wantonly for years before.
    Mr. Rohrabacher. I see. So in other words, according to--if 
we can expect the same type of behavior with--that they made 
with other agreements with this agreement they could easily--
even with all these other inspections we are talking about they 
could obtain, let us say, a nuclear weapon from an illegal 
source.
    Now, another question for the panel--we have some people 
who know about U.S. intelligence, et cetera, with us today--are 
there nuclear weapons that some countries or some groups might 
be able to obtain on the market rather than develop--having to 
build their own weapon?
    General Hayden. Of course, always watching the North 
Koreans. We saw the North Koreans build a plutonium reactor in 
the eastern Syrian desert----
    Mr. Rohrabacher. Okay.
    General Hayden [continuing]. That we detected just at the 
last minute. Just to spin off the scenario that Senator 
Lieberman has talked about with regard to the Sunnis and how 
they will respond to this, I mean, one very possible scenario 
is that the Saudis will then go to the Pakistanis in order to 
get nuclear devices to balance what they view to be the Iranian 
threat.
    Mr. Rohrabacher. So what we have is basically a situation 
where we have not refrained from supporting the democratic 
elements in Iran, which is the real solution is getting rid of 
the mullah regime and getting a democratic government in there 
that doesn't seek to possess nuclear weapons.
    But, of course, we have actually undermined that 
opportunity by--over these last 6 years and in fact this 
agreement may undermine it further.
    And well I thank you all for your testimony today and I 
think that you have given us a lot to think about and I would 
hope that all of us here do our duty and I don't think it is a 
tough decision.
    I think it is very clear that this is a rotten deal and but 
we will keep an open mind to see if we can be convinced that 
there is some other benefits to it. Thank you.
    Chairman Royce. Thank you.
    Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair.
    I had a few questions that really kind of focused on the 
process and also the consequences of our actions. And so a 
couple of people have asked questions about our partners from 
the other countries.
    So I was wondering about the P5+1 and wanted to know if 
they have a similar process where they are voting in their 
legislative bodies, what happens at the U.N. and maybe you 
could put it in sequence, Ambassador Burns.
    Mr. Burns. Thank you very much.
    The P5+1 group was put together by the U.S. in December 
2005. It has been the core of the international effort and one 
of the reasons why I am supporting the President's initiative.
    I think that if you keep this group together that is the 
leverage point and pressure point through sanctions, 
inspections on the Iranians. If the group dissolves then we 
really lose our leverage.
    It's a disparate group. The French, of course, the Germans 
and the British will have to go back and report to their--the 
Bundestag and the two parliaments on this deal. They are 
democratic countries.
    I am very strongly assured that President Putin doesn't 
really have to worry about the Dumas very much.
    Ms. Bass. So do you have any sense of France and Britain? I 
mean, will their legislative bodies approve it? What is your 
sense of that?
    Mr. Burns. My sense of the politics in Europe is that in 
the main the parliaments and the public are strongly supportive 
of this deal. I think that is true in Europe, almost across the 
board.
    The interesting country here is Russia. We are sanctioning 
Russia over Ukraine.
    Ms. Bass. Right.
    Mr. Burns. And deservedly so. And yet we are going to have 
to work with Russia to try to keep them on our side here. The 
country that I think is weakest is China because they tend to 
be motivated by commercial purposes almost to the exclusion of 
strategic thought that we have to be worried about because, you 
know, we have to worry about law and order in the Middle East.
    And so it's a very difficult coalition. But behind it, of 
course, you have also the major purchasers of Iranian energy 
and I mentioned them before--Japan, South Korea and India--very 
important that we keep them in this coalition as well.
    Ms. Bass. How do you see this playing out at the U.N. 
Security Council?
    Mr. Burns. Well, I think there is no question that part of 
the implementation of this agreement will be that there will be 
a new Security Council resolution that will put this new 
agreement into force that will take away the sanctions, at 
least those that have been voted upon by the United Nations. 
And if the five permanent members are all in agreement they 
will win the vote.
    They need nine votes to carry a resolution. I think it is 
pretty much assured that they will win that particular vote.
    Ms. Bass. Do you have any concerns that any of those 
countries will exercise their veto power?
    Mr. Burns. No. I think the deal worked out is that they all 
agree they will not exercise the veto, that they are all going 
to go forward. This is the way to implement the agreement. So I 
think there is zero percent probability that any country would 
use the veto.
    Ms. Bass. So if we turn this down and we override a veto, 
what do you see happening then? How does it play out in the 
international arena?
    Here are all these reports about planes full of people who 
want to go over and make business deals for various countries. 
So if we override the President's veto what happens then?
    Mr. Burns. I think if the President vetoes a vote of 
disapproval, if that is then overridden, I think you will see 
the dissolution of the P-5 group, the breakdown of solidarity 
around the world on sanctions, the commercial impulse of a lot 
of these countries to do business with Iran, will take over.
    Iran will then be in the position of getting sanctions 
relief, right, effectively from most of the world. But they 
also won't have any constraints on their nuclear program.
    Ms. Bass. Well, I was going to ask how would we hold them 
accountable. I mean, if we back out then it's not us holding 
them accountable. But how will the rest of the world in the P-
5--because it won't be +1.
    Mr. Burns. Iran won't be accountable. Iran will be able to 
proceed on a plutonium and enrichment program that they haven't 
been able to do now for 13 months and this does get to the very 
important question.
    We are all trying to define what is the question. My 
question is what is the best alternative for the United States 
as we live in the real world?
    We are right here in the middle of 2015. I think it is this 
deal. We can't go back and design a better process 5 years 
back. I also would disagree very respectfully with Senator 
Lieberman and General Hayden on one question.
    If we are worried about proliferation that the Saudis or 
another country might want to compete with the Iranians and 
develop a nuclear weapon or buy one, the scenario for that is a 
breakdown of this deal that leaves the Iranians without 
constraints on their nuclear program.
    The way to resolve the proliferation problem and reassure 
the Gulf Arabs is to lock and freeze in the Iranian program for 
the next 10 years.
    Ms. Bass. If we overrode the veto also how would we get--
you said sanctions would break down and let's just say we 
wanted to bring sanctions back again--how would you be able to 
bring them back?
    Mr. Burns. Well, if that happened, hypothetically, 
obviously the President and the Secretary of State would want 
to reassemble a sanctions regime against Iran if Iran had 
broken the agreement and if Iran was proceeding with its 
nuclear research it could be----
    Ms. Bass. What does--one last quick question.
    Mr. Burns [continuing]. It would be difficult to do.
    Ms. Bass. Okay. So whether it's 10 years at the end of--if 
we get to year 8 and 9 and I am asking you this based on your 
previous experience because it kind of comes across like 10 
years happens and then everything goes back to normal.
    Wouldn't a new agreement begin to be negotiated around year 
8 or year 9 or are you just sitting and waiting until 10 years 
is over?
    Mr. Burns. If you still had the Ayatollahs in control, if 
you still had a radical government in Tehran you'd have to put 
together, I think, another sanctions regime, pressure points on 
Iran, threaten them, reserve the right to use military force if 
they sought a nuclear weapon. You'd be back in that game.
    Ms. Bass. Okay. Thank you, Mr. Chair.
    Chairman Royce. Thank you. We go to Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Senator Lieberman, I will begin with you, if that is okay. 
As has already been mentioned, Prime Minister Netanyahu had 
referred to this agreement as a mistake of historic 
proportions.
    What position does this put Israel in?
    Mr. Lieberman. Thanks, Congressman. Obviously, Prime 
Minister Netanyahu and the leadership of Israel is better 
prepared than I am to make a statement about that.
    But this is a room full of friends and supporters of Israel 
and it is very clear that based on the violent anti-Israel 
rhetoric of the Islamic Republic of Iran, based on the support 
by Iran of the terrorists who know threaten Israel including, 
particularly, Hezbollah and Hamas the idea that the Iranians 
would have a nuclear weapon in the foreseeable period of time 
assuming they kept the promises that they made about the first 
10 years is very threatening to Israel.
    And I think it will lead the Israeli Government to make its 
own decisions about what it can do to better protect itself. 
Incidentally, one of the interesting things, as you all know, 
the Israeli political system is quite lively, a lot of 
opposition.
    But from what I see the feeling about this agreement and 
that worry about it in the weeks preceding it is shared across 
a very broad spectrum of the Israeli political establishment.
    So to be more specific, the Minister of Knesset, Herzog, 
who was the leader of the opposition has basically said the 
same things about an agreement--a bad agreement--on nuclear 
weapons with Iran that Prime Minster Netanyahu had said.
    Mr. Chabot. Thank you. General Hayden, let me turn to you 
at this point. When you combine the lifting of the arms embargo 
and this agreement shouldn't it be greatly concerning to us, 
our security, that the concern that intercontinental ballistic 
missile technology and information goes from Russia to Iran and 
that puts us directly in harm's way here from a nuclear-armed 
Iran somewhere down the road?
    General Hayden. Well, it certainly puts us in a position of 
being more threatened by a more capable Iran with or without a 
nuclear device.
    The Senator talked about Israel and its position on nuclear 
weapons and how this really frightens the Israelis. I think 
there is another element to it.
    Yesterday, Iran was an international outlaw. Today they are 
not. And that will allow the normalization of a whole host of 
relationships as you're suggesting that will allow the Iranians 
to grow in strength.
    Now, next comment about we need to work hard to make sure 
that doesn't happen because they are engaged in egregious 
behavior throughout the region is certainly true and 
aspirational.
    But I do think for the rest of the world this is welcoming 
this Iran, the one that has not changed, back into the family 
of nations and that is very problematic.
    Mr. Chabot. Thank you. Dr. Takeyh, I have limited time 
left. So let me put two questions to you, if I can.
    One is, isn't it likely that with this deal you are going 
to see a pretty significant reaction by the Gulf States and the 
Saudis, that they have to counter a much stronger Iran now that 
ultimately is going to have nuclear weapons in all likelihood 
as a result of this, so that you're going to see in essence an 
arms race there?
    And secondly, this--given 2 weeks' notice before you can 
inspect you can move a lot of incriminating evidence with 2 
weeks' notice and then negotiations probably after that as 
well. Wouldn't that be accurate? And I will give you whatever 
time I have left.
    Mr. Takeyh. Sorry. Whether this can lead to proliferation, 
my suspicion is--my guess is that the Saudis and the Gulf 
States are going to try to match Iran's capability.
    Now, Ambassador Burns said that this would happen in 
absence of a deal. But it hadn't happened in absence of a deal.
    It hadn't happened in absence of a deal because the trust 
and confidence that those countries had in the United States 
and its intentions to severely restrict the Iranian nuclear 
program.
    That intention is no longer in practice. This agreement 
says that Iran will be treated as NPT. I would like to hear, 
and I have never heard, a defense of the sunset clause.
    The only thing I hear about the sunset clause is if it is 
about to expire we can try to not have it expire. That is not a 
defense of the sunset clause.
    If you defend this agreement you should defend why it 
should expire in 10 years. That's the intellectually consistent 
position.
    In terms of your verification demands, the verification 
procedure will be in place once the IAEA has credible evidence 
of untoward activity. That is not a card you can play every 
day, that there is something suspicious happening in a non-
declared nuclear site.
    And then it will ask the Iranian Government for permission 
to deal with that particular.
    In the annexes that I have seen I don't know what that 
means in terms of inspecting the military facility. Do you do 
environmental sampling? Do you go through the whole thing? I 
don't know the answer to that. It is not obvious to me in the 
annexes that I have seen but maybe I should probe them more.
    And then if there is a dispute it will go to a resolution 
dispute committee. Every arms control agreement has a 
verification dispute committee.
    Once that committee says well, Iran is wrong and the IAEA 
should have access, Iran says not, it will go to the Security 
Council and Ambassador Burns knows all about the Security 
Council.
    The Security Council can do lots of different things. The 
Security Council cannot impose economic sanctions on Iran. 
There is no country called Security Council.
    It can recommend national measures but those national 
measures will subsequently have to be negotiated case by case 
by the United States Government as was done for the past 10 
years when successive American diplomats went to Europe and 
elsewhere trying to restrict Iranian commerce.
    Mr. Chabot. And during that long period of time that you've 
set out, there are no inspections?
    Mr. Takeyh. On that particular--on the cleared side? No.
    Mr. Chabot. Thank you. I yield back.
    Chairman Royce. All right. We go to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I'd like to thank the 
witnesses for the seriousness and the tone with which they 
conducted themselves in this hearing and the thoughtfulness as 
well of my colleagues.
    I think that--I hope this is a harbinger for the way we are 
discussing this issue going forward because it is, indeed, one 
of the more serious issues we'll have and I know for one I 
think I speak for most of Congress that we are just beginning 
to digest this and in no position to take a position on this.
    Yet, many of your comments have been thoughtful and I share 
many of them. That being said, I just want to go back. There is 
a few areas of interest.
    Ambassador Burns talked about how the coalition is likely 
to unravel and then we would lose our strength in terms of the 
sanctions.
    There is another area that might change if this is stalled 
or if we walk away from this and that is the issue that we are 
negotiating with Iran before they have the nuclear program in 
place.
    What would the negotiations be, in your mind, after they 
have that? How much more difficult would it be? How would they 
be limited if we wait? I think that is an important question 
that hasn't been asked. Ambassador Burns.
    Mr. Burns. Thank you, Mr. Keating.
    May I just take this opportunity to say I am one of your 
constituents from Westport, Massachusetts. So thank you very 
much for your representing us in Congress.
    Mr. Keating. Well, I am doubly glad that I commended all of 
you on your----
    Mr. Burns. I am too. You know, we have had a bitter 
experience with North Korea that both General Hayden and 
Senator Lieberman and I have all been involved in this.
    And once North Korea obtained nuclear weapons it has become 
almost impossible to negotiate with them because they have 
leverage right now.
    And, of course, they have some protection from China as 
well. So I think that both President Bush and President Obama 
have been right to try to go at this in a more direct way and 
try to stop--by negotiations--the Iranians before they cross 
the nuclear threshold.
    What President Obama has been able to do, in my judgment, 
is buy us 10 years. And I agree with Ray and everyone else 
here. We can't hope that the Iranians will change. I bet they 
don't.
    So we are going to have to go through these 10 years with a 
lot of vigilance, a lot of toughness and maybe even replay all 
this 10 years from now. But we bought ourself 10 years.
    And we do have international unity and in the end even 
someone as cynical as President Putin doesn't want Iran to 
become a nuclear weapons power. Russia lies closer 
geographically to Iran than the rest of us do.
    In an interesting sort of way, the Russians have not broken 
consensus, despite the fact that we are sanctioning then on 
Ukraine.
    So I think this is the time for negotiations and I do 
believe, reflecting on the history of a post-9/11 era we should 
exhaust diplomacy and then if it fails--and this could fail--
then we always have the military and the military option to 
rely on. I think that is the proper sequence.
    Mr. Keating. I am trying to get in another couple 
questions. Let us see if I can. One of my concerns was raised 
by Ambassador Burns, and Doctor, you addressed your opinion on 
this, but the idea that if this agreement would result in 
Saudis and the Gulf States just moving forward.
    Now, they were at the 1-yard line, you know, to getting to 
their nuclear program and there is no doubt in my mind going 
the 99 yards. They are going to go do that.
    So if they are going to get that anyways, wouldn't any 
decisions by the Saudis or other countries, wouldn't they have 
done that anyways?
    Aren't they going to do that--my point is I hope you're 
following this that it's not any agreement that is going to all 
of a sudden make them go forward with their armed nuclear 
programs. But in the absence of an agreement they are going 
forward anyways, at least I believe that.
    So I think it's kind of a moot point about the other 
countries moving forward. But I understand, Doctor, what you 
said. Then any of the other panelists have a view on that?
    Mr. Takeyh. The Gulf States have not moved forward.
    Mr. Keating. Well, but if this becomes a reality one way or 
the other they are likely to. That is your consensus?
    Mr. Lieberman. Go ahead, General.
    General Hayden. I will have very, very quick view, Mr. 
Keating. Right now, they really haven't and they haven't 
because we go into the huddle with them. We are part of their 
team.
    There is going to be a perception that we have not quite 
switched sides. We have gone to the lead commissioner's office 
and we are no longer playing on their squad.
    Mr. Keating. All right. If I could----
    General Hayden. We will want to pursue it.
    Mr. Keating. I just want to get one more question in. Of 
course, I am very sensitive to going to the League for 
sanctions, being a big fan of the New England Patriots. But 
that is another issue.
    Quickly, at least I will raise the question--I don't know 
if time will permit. But I think that of concern too is that if 
the coalition unravels, you know, that creates a problem. But 
if Iran violates how easy will it be to reconstitute that 
coalition for sanctions again? And that is a real concern.
    Mr. Lieberman. I think, first, I should reassure you that I 
have a lot more confidence in Tom Brady than Ayatollah Khameini 
and that goes without saying.
    So, you know, it has been great to have the P5+1 together. 
It strengthened our position. But I think we have to talk about 
tradeoffs, which Ambassador Burns has spoken of.
    I think--I would have us reject a bad deal and run the risk 
of having the P5+1 coalition dissolve than to accept a bad deal 
which will compromise our security and that of our allies in 
the Middle East.
    I mean, I think we--in my opinion part of what has been 
lost here is that the Iranians needed this agreement more than 
we did. It didn't seem like that but they are in a lot more 
trouble than we are, certainly economically, and they benefit a 
lot from this.
    If for some reason the P5+1 coalition falls apart we are 
still the economic superpower of the world and access to our 
banking system is still necessary for economic growth.
    And so we have the capacity ourselves to reimpose sanctions 
on them.
    Mr. Keating. Thank you. I have gone over my time and other 
members want to talk. But thank you all. Mr. Chairman, I yield 
back.
    Chairman Royce. Joe Wilson, South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, and I am grateful just 
as Mr. Keating for Chairman Ed Royce and Ranking Member Eliot 
Engel for the bipartisan explanation of the threats to the 
American people.
    Additionally, I am very grateful for the panel being here 
today. You are making a difference explaining this to the 
American people.
    I am disappointed the President has made dangerous 
concessions when negotiating with the Iranian regime. This 
regime sponsors terrorists who attack American families and 
openly calls for death to Americans and our allies, especially 
Israel.
    This bipartisan concern, I believe, has been expressed so 
well today by the courage of Senator Joe Lieberman. Your 
testimony today that this is a bad deal which should be 
overridden, thank you very much for your courage.
    Foreign Policy Initiative board member William Kristol 
wrote today, ``It is obviously a very good deal for the 
Iranians regime, a very bad deal for America. Congress should 
pass a resolution of disapproval. Congress then should override 
the President's veto and return America's Iran policy to 
dealing from a position of strength rather than supplication.''
    In the coming days, I hope the American people are allowed 
to consider the agreement truthfully and hold the President 
accountable.
    In an effort to achieve political gain, President Obama has 
ignored Congress and the American people and I believe is 
establishing a sad legacy of a murderous regime with nuclear 
intercontinental ballistic missiles targeting American 
families.
    I agree with Israeli Prime Minister Benjamin Netanyahu: 
This is a mistake of historic proportions. With that in mind, 
Senator Lieberman, it should be remembered that the Secretary 
of State designated Iran a state sponsor of terrorism January 
23, 1984, over 30 years ago.
    This was in response to the October 1983 bombing of the 
U.S. Marine barracks in Beirut, killing over 300 Marines.
    This was perpetrated, people need to remember, by the 
Iranian regime. Keeping that in mind, has there been any change 
of course by the Iranian regime leading up to the negotiations 
that have occurred today or been agreed to today?
    Mr. Lieberman. Thanks, Congressman Wilson. This is a very 
important point. It is easy to get focused on today and forget 
tomorrow but tomorrow tells us who this agreement is with.
    Let me be really explicit about it, as you have been. This 
Iranian Government, the Islamic Republic of Iran, has the blood 
of a lot of Americans on its hands.
    The Marines at the barracks in Beirut, the soldiers at 
Khowar Towers, I could go on and on. Incidentally, hundreds of 
American soldiers were killed in Iraq by Shi'a militias that 
were trained in Iran by the IRGC.
    So your question is a good one--has the government changed. 
There is no evidence of it. Somebody said before that, and I 
have heard it before--Iran has two governments. I don't think 
so.
    Iran has one government and two faces. The government in 
power is Ayatollah Khamanei and the IRGC. The face that they 
put out occasionally is Prime Minister Rouhani or President 
Rouhani and now in these negotiations the Prime Minister Zarif.
    But does anybody really think Zarif and Rouhani are really 
representative of their government? No. Not in the final 
analysis. So your question, as you consider this agreement, is 
you got to remember that who you are making the agreement with 
is very important.
    Mr. Wilson. And additionally the IEDs--improvised explosive 
devices--that killed hundreds of Americans in Iraq and also in 
Afghanistan--I had two sons serve in Iraq, another in 
Afghanistan.
    They had to face Iranian weaponry and for this to be 
disregarded is incredible to me. And I want to thank you too. 
You brought up about the government-sponsored newspaper in 
Tehran and people need to know what the exact quote was and 
that is that they predicted the U.S. ``will one fine day cease 
to be visible on the map of the world.'' I mean, goodness 
gracious, what are we facing?
    And General, by lifting the economic sanctions what will 
this do to our efforts to stop the degrading of terrorism and 
what does this do to the stability of Iraq, Syria and Yemen?
    General Hayden. Congressman, it just increases Iranian 
capacity across the board. That is an unavoidable consequence 
of this. It may be something we are willing to pay the price 
for?
    I don't think so because of the nuclear portfolio. But 
unavoidably Iran is more capable of continuing the policies it 
has been following for the last several decades and there is no 
evidence that this agreement or anything else is going to make 
the Iranians change that course.
    Mr. Wilson. Thank you very much, each of you.
    Chairman Royce. Thank you. We will go to David Cicilline of 
Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I too want to thank 
the witnesses for your thoughtful testimony and for assisting 
us in what will be a very consequential decision not only for 
our country but for the security of the world so thank you.
    I want to just start by saying that I think the objective 
of these negotiations, at least as presented to me, was always 
preventing a nuclear Iran and that it is important that, as we 
decide whether to support or disapprove this agreement, it 
should be measured against that objective. There is lots more 
work to do and lots of action and pushing back that needs to 
take place. But nobody should have imagined that this agreement 
would solve all of the challenges we face and result in a 
complete transformation of the ideology, behaviors or 
intentions of Iran because if that is the test there's no 
question that the agreement fails.
    The question is does it achieve a non-nuclear Iran. Senator 
Lieberman, you just testified that it allows Iran to be a 
nuclear weapon state and makes it inevitable. The President 
this morning, in describing this agreement, said, and I quote, 
``that it is a comprehensive long-term deal with Iran that will 
prevent it from obtaining a nuclear weapon.''
    So I will start with you, Ambassador Burns. Who is right? I 
mean, if the objective is to prevent a nuclear Iran, Senator 
Lieberman has said it is inevitable because of this agreement. 
The President says it will not happen because of this 
agreement. That is the question we have to decide.
    Mr. Burns. I respect Senator Lieberman's position here 
because he's spent decades on this issue and I don't want to 
take issue with him at all, in this sense.
    I don't think it is possible to say that this agreement 
will 100 percent prevent Iran from becoming a nuclear weapons 
power. They could achieve that through covert means.
    So I think that would be the wrong way to look at this. I 
think it gives us the greatest probability of preventing that 
and that is why I am supportive of it.
    I see the down side and I think Congress will have to 
struggle through what we have all talked about this morning--
will the inspections be strong enough--can you reimpose 
sanctions, right?
    What is the nature of the regime? But I am convinced we 
have to try this first and we have to be vigorous in trying to 
implement it and if it works we are ahead of the game. If it 
doesn't work we have other options. We do have other options.
    But I wouldn't say that if you are opposed to this deal, 
that somehow leads to war. I think that is false, too.
    I actually think if the deal unravels the Iranians won't 
be--the Iranians are smart enough they won't go to the nuclear 
threshold.
    They will go--they will be some ways behind to not invite a 
military response. So I think the rhetoric, if you are against 
it, you are going to get a war is not correct.
    And if you are for it, you can't assure the American people 
there will be no nuclear weapon. I think the reality is very 
complex between the two.
    Mr. Cicilline. And building upon that, Ambassador Burns, 
much of the argument has been made even today that what this 
agreement attempts to do is buy a decade--buy this period of 
peace or a period of at least Iran not moving toward a nuclear 
weapon.
    The argument, of course, being that the end of that period, 
some would argue, Iran will be stronger. They will have greater 
economic success. They will be able to withstand the imposition 
of sanctions better than they are today. Our argument on the 
reverse side is that we will know more about the nuclear 
program than we've ever known before as a result of intrusive 
inspections.
    So it seems to me that is one of the other questions we 
need to struggle with is where do we end up. Because 
presumably, according the to the agreement, no options are off 
the table at the end of that period.
    Military options, all the options that are available today 
remain available. The only question is what is the difference 
in the strength of our positions.
    Mr. Burns. Right. And I think one way to look at this 
analytically is that there is a lot of risk here in going 
forward. There is a lot of risk in not going forward and 
disapproving and you have to try to weigh the risks on both 
sides.
    I think there is a legitimate case to be made, and Ray 
Takeyh knows more about this than I do, that there is a 
possibility this regime is going to change--become less 
virulent, less aggressive. But we can't bank our strategy on 
that. Hope cannot be the basis of that strategy. So we have to 
be prepared for either outcome. We would take advantage of a 
positive turn of events. We have to be very tough if 10 years 
from now this regime hasn't changed and tries to turn back 
toward a nuclear futures.
    Mr. Cicilline. Dr. Takeyh, can I follow up with you? One of 
the things you said is you challenge the supposition that you 
can challenge a revolutionary state and have an arms agreement, 
which is, of course, exactly what this proposal attempts to do. 
Why do you think we can't do both of those things?
    Mr. Takeyh. I think in the context of U.S. relationship 
with the Islamic Republic--what I will suggest then, 
Congressman, is it is difficult to maintain an arms control 
agreement as well as coercive leverage because the principal 
course of leverage we have exercised on Iran is economic.
    We have never responded to their military attacks on the 
United States and Iraq and elsewhere. And the course of 
leverage of economics this agreement commits the United States 
and the international community to unwind economic sanctions on 
Iran over a decade. So your coercive menu shrinks. And once it 
shrinks from economic instruments you have military at your 
disposal and I just don't think there is a military solution to 
this. So basically if you want to pressure Iran and 
historically we have pressure through economic sanctions that 
option is becoming less available as you are statutorily 
committed to unwinding those sanctions.
    Mr. Cicilline. General Hayden, if I could just ask one last 
question of you and Senator Lieberman. What do you think 
happens if the deal is disapproved by Congress--the veto is 
sustained? What do think happens next?
    General Hayden. We are in absolutely uncharted waters, 
Congressman. It would depend on the strength of the American 
argument, the willingness of the administration to go to our 
allies and explain why we have chosen a new course of action. 
And as the Senator pointed out, we are a powerful nation on our 
own.
    We can impose very powerful sanctions on a variety of 
fronts across the Iranian, economy, particularly the Iranian 
banking system. But as Ambassador Burns points out, the more 
international consensus we get the more coercive pressure we 
can bring to bear.
    Mr. Lieberman. A real quick response, Congressman. If this 
agreement is rejected by Congress, nobody can predict what will 
happen. But I would say that I would hope that the 
administration would try to regather the P5+1 and basically go 
back to Iran and say we couldn't sell it--we got to do a better 
deal here. And, again, I believe that Iran needs a deal much 
more than we do.
    The other thing is that at that point we probably would 
want to look at increasing sanctions to give them another 
motivation to come back and making credible the President and 
Congress that we are prepared to use our military power if our 
intelligence tells us that they have actually turned the corner 
and are beginning to nuclearize their program.
    Mr. Cicilline. Thank you, Mr. Chair. I yield back.
    Chairman Royce. Michael McCaul, chairman of the Homeland 
Security Committee.
    Mr. McCaul. Thank you, Mr. Chairman. Let me thank the 
witnesses.
    I, in some respects, feel like the train has already left 
the station. Even if we disapprove of this, it is vetoed and we 
override a veto, this still goes before the U.N. Security 
Council and unless the administration exercises leadership 
those sanctions will certainly be lifted regardless of what we 
do in the United States and I think that is maybe something we 
haven't discussed here today.
    And then from a homeland security standpoint that means we 
have billions of dollars being restored to the Iranians that 
can then go into these terrorist operations.
    We know that they control five capitals now. Really, 
arguably, Tehran, Baghdad, Damascus, Beirut and Sinai and 
Yemen. That is what greatly concerns me and I don't know if we 
can turn the clock back on this now, now that the P5+1 has 
agreed to this. When I was in Europe on my codel, you are 
absolutely correct, Ambassador.
    They are very supportive of this deal and primarily I think 
because they have a lot of money to be made on this. And so I 
don't know what we can do to stop it. I can tell you what I am 
concerned about is the last minute--as the chairman mentioned--
the last minute arms embargo being lifted, which could lead to 
Russian technology in the sanctions against the Quds Force 
being looked at as well as not to mention, you know, when you 
look at the track record of the IAEA and whether they can truly 
perform this mission with unfettered access, which I highly 
doubt the Iranians are going to give us access to.
    And when I look at what are they giving us access to, 
nuclear facility sites. It doesn't include their military 
facilities which, arguably is where a lot of this could 
potentially take place.
    And then, lastly, the intercontinental ballistic missiles 
which have been talked about a great deal that they can mass 
produce and General, as you know, intelligence estimates are 
indicating by the end of possibly as early as next year could 
have capability to hit the United States of America.
    There is only one reason why you produce these things. It 
is to deliver a nuclear warhead. So all these things put 
together in addition to the rhetoric I think I agree with 
Senator Lieberman--it is more risk for America and more reward 
for Iran. I want to end with this because this is probably the 
worst. When I was in Saudi I think Senator, and General, as you 
mentioned, they asked me why are you negotiating with Iran--why 
are you doing it?
    I met with Netanyahu--why are you doing this--this will 
result in a nuclear arms race in the Middle East. And as you 
indicated, the Saudis are already taking steps now, maybe 
working with Pakistan, to produce their own nuclear capability. 
And then Turkey is going to want that, Egypt is going to want 
it and on and on and on.
    I think that is one of my biggest concerns here is the 
result of all this backfiring and a not so great result.
    Senator, General, if you could both comment on that.
    Mr. Lieberman. Well, Chairman McCaul, it is good to see. Of 
course, I agree with you, all your concerns, your question 
about what happens at the United Nations if we reject--if 
Congress rejects the agreement and the President's veto is 
overwritten is a really interesting question.
    I mean, in the most direct sense you'd think that the deal, 
therefore, would be dead so that there would not be a basis for 
going to the United Nations but based on having read it one and 
a half times this morning I am not sure I could swear to that 
under oath. So it is a really interesting question and, again, 
I come back to what I said before.
    Let us never underestimate our power. The United States not 
only is a military power, we are an economic power, and if we 
continue to apply sanctions which deny Iran and countries that 
deal with Iran to our banking system it is going to affect the 
Iranian economy and let us never forget that.
    Mr. McCaul. General Hayden.
    General Hayden. Very briefly, Mr. Chairman, I am trying to 
catch up with the agreement and read the fine print this 
morning.
    It is not at all clear to me that this will not be resolved 
in New York before the congressional review period has expired 
and so we may have the administration going to one deliberative 
body about this before this deliberative body has a chance to 
vote.
    Mr. McCaul. Mr. Chairman, if I could just echo that point. 
I don't--I don't know the answer to that either. If the U.N. 
Security Council approves this before Congress even has a 
chance to vote on it and then what happens are the sanctions 
then lifted by the European or international partners 
irrespective of what the United States does. I don't know the 
answers to this as, you know, this agreement just came out. But 
I think that is something we need to take a look at.
    Mr. Lieberman. Well, Mr. Chairman, if I may say so--take 
the liberty, you raise a really interesting question and it may 
be that one of the points as you start your deliberation here 
on this agreement that you could achieve bipartisan agreement 
on is to ask the administration not to go to the United Nations 
before they come to Congress.
    I mean, that is--it seems to me that our Constitution 
requires that kind of respect first for congressional 
consideration.
    Mr. McCaul. I agree 100 percent. I yield back.
    Chairman Royce. Let us go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Well, first of all, I want to thank you gentlemen for this 
very anxiety-producing discussion. I know we all agree that 
Iran should not get a nuclear weapon. It would put the most 
dangerous weapon in the hands of the world's foremost sponsor 
of terror and most likely lead to a proliferation of nuclear 
weapons in the Middle East region.
    And I want to say this. I think because of the seriousness 
of this issue that we have to all take a very objective, 
nonpartisan scrutiny of this issue and this prospective deal.
    And I think Mr. Meeks made a point also that I wanted to 
echo, which is, you know, not knowing what went on in the room 
with our partners makes some of the deal not understandable to 
me because this is one of my--and I don't mean to simplify what 
is a 70-page agreement that has taken so many, literally, years 
to get to this point--but this is one of my biggest anxiety 
points that has been raised, which is we are going to give Iran 
billions of dollars. They are going to continue their terrorism 
all over the world. Then at the end of 15 years they are 
allowed to continue to enrich. So this is the part that I don't 
understand. What happens in 15 years? I know we will--I suspect 
that we are going to know more, which is a good thing.
    But is Iran going to be nicer or are they going to be less 
susceptible to economic sanctions? That is, to me, a very 
sticky point. And then on the other side of the coin, though, 
to me another anxiety point is, you know, if we walk away and 
we went to let us put more sanctions on, do you think an us 
versus them approach--in other words, I know we need our 
partners to help us with these sanctions.
    Do you think they would be amenable to, you know, you have 
to be with us or there will be other economic consequences from 
the United States. So those are my two questions, if someone 
wants to take a shot at them.
    Mr. Burns. I would be happy to. I would just say that I 
think all of us agree on our opposition to Iranian support for 
terrorism, on the American hostages--these are vital issues.
    But there is a reason why both the last two administrations 
have focused more on the nuclear issue. It is the greater 
immediate danger. And so in government, as you know, you have 
to make those choices and I think the choice is right to have 
this negotiation.
    We have to pressure them on the other issues but you have 
to go at this issue first and foremost. Second, I don't believe 
that sanctions--U.S. sanctions alone--can work. I agree with 
Senator Lieberman that, you know, we are the biggest economy in 
the world and we can do a lot of damage to the Iranians.
    But what really tipped the balance and drove them to the 
negotiating table was that the rest of the world got involved, 
too. And if Congress disapproves and the sanctions regime 
dissolves, you have lost your leverage.
    Third, in that scenario, and you--a previous member asked 
my colleagues to my right about that scenario--if there is 
disapproval what will the United States do? We could go back to 
the P-5.
    I don't think Russia and China would want to form the same 
coalition and go back to the first step 10 years ago in trying 
to pressure the Iranians. I think we would be without leverage 
and our President would be weakened and all the work of the 
last 10 years, I think, would have been undercut. And that is 
why I am strongly for it--despite the misgivings and tradeoffs 
that I see. I am strongly for congressional approval of this 
agreement.
    Ms. Frankel. But Iran will most likely be stronger in 15 
years, especially economically.
    Mr. Burns. Well, I would assume they would be stronger 
economically. We don't know what kind of country they will be 
like in terms of their behavior because we can't look into a 
crystal ball.
    So we can't build the policy on hoping they will change, 
and there has been too much talk, I think, from some parts of 
the administration that somehow it is going to be a honeymoon 
and the United States and Iran will become partners in the 
Middle East. I don't see it, if you look down the litany of 
issues that all of us have discussed.
    Ms. Frankel. Senator Lieberman, do you think we could get 
sanctions back on the table?
    Mr. Lieberman. I think if the Congress rejects this 
agreement I think the first step would be to try to go back to 
Iran and urge them to come back to the negotiations and, again, 
I repeat, just practical politics. The administration can say 
we tried our best to sell it. We couldn't sell it. 
Representatives of the people in our country, constitutional 
republic, said no, we don't go with it. If they are 
recalcitrant then I think we have to go back to sanctions. I 
think we can ourselves, certainly. Can we get some of our 
allies? I hope so. I don't know.
    I think your other point here is really important. Look, I 
would have loved to have this be a good deal that closed the 
door, as we originally said we would, to Iran becoming a 
nuclear power and that would have allowed us to end our 
sanctions on them that would have had a very tough airtight 
inspections regime, which you have to have with a country that 
has such a record of cheating and deceit and delay.
    This is not it, and that is the problem, and therefore they 
are going to get money. So I think the--of course, we never 
know what Iran will look like in 10 or 15 years. But I think 
ratifying this agreement will make it more likely that the 
radicals who are in charge of Iran will still be in charge of 
Iran. Why?
    Because they will use some of this money that they get as a 
result of lifting sanctions to strengthen their position inside 
the country, let alone what they will do to expand what they 
have done through terrorists and others in the region.
    But they will have money to use to make people in Iran 
happier than they are now and it will be harder for the 
opposition, which is there--not supported by us or anybody else 
but it is there--to have a chance to overthrow the extremists.
    Chairman Royce. We are going to go to Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here. I appreciate your expertise on this very sensitive, 
important subject.
    I look at the ruling party, the Ayatollah, as a wolf in 
wolf's clothing. He has made it clear that he wants death to 
America. He said that numerous times.
    And now it seems to me that the wolf has made a deal with 
the sheep not to eat the sheep for 10 years. And then what, 
supper? We don't know.
    My concern is, were there ever any discussions that there 
needed to be free elections in Iran to let the people decide 
who should rule over them?
    Do any of you know of any discussion about that in this 
deal that has been taking place for some time? Senator 
Lieberman.
    Mr. Lieberman. I don't, and I assume it was off the table 
and wasn't mentioned, along with a lot of the other things that 
bother us about Iran's behavior, like their support of 
terrorism and their incarceration of Americans, their 
deprivation of human rights of their own people. Unfortunately, 
you could go on and on.
    Mr. Poe. Public hangings of political opponents.
    Mr. Lieberman. Exactly.
    Mr. Poe. Do you agree or not that the best hope, really, 
for security--world security--and Iran is that they have a 
regime change with peaceful elections, Senator Lieberman?
    Mr. Lieberman. I certainly do. That is the ultimate answer 
and we haven't really tried or done very much to bring that 
about.
    Incidentally, during the Cold War, even while we were 
making arms control agreements with the Soviets we were 
supporting opposition movements within Eastern Europe, for 
instance. We were supporting the refuseniks in Russia. So there 
is a precedent for that.
    Mr. Poe. Do we--is this deal, the hope in this deal, based 
on the premise that we will trust the Iranians to comply?
    Mr. Lieberman. Well, so as I have said here already, 
Congressman, I don't think there is any basis in Iranian 
behavior for the last three decades to trust them and you could 
recite the litany of the ways in which they have justified that 
unfortunate conclusion.
    The one way in which you could have confidence in this 
agreement is if the verification inspections--provisions of 
it--were really airtight--anywhere, anytime. But they are not. 
They create a whole negotiating process--as we have said, 14 
days, 21 days, appeal to a board. It is an invitation to the 
Iranians to obfuscate and if they are caught with something 
wrong to have the time to get it out of the view of the 
international inspectors.
    Mr. Poe. In the area of inspections, whether you are in--
whatever you are inspecting, giving notice to whoever you are 
going to inspect always allows them to hide or fix the problem 
before you get there. It seems to me with 24 days you'd be able 
to hide the Grand Canyon or something. I find that is a 
problem.
    Big picture--is it still the policy of Iran today to 
destroy the United States?
    Mr. Lieberman. Well, until we hear otherwise I think we 
have to say it is.
    Mr. Poe. And Israel as well?
    Mr. Lieberman. And Israel, and now you will notice that at 
last Friday's demonstration, for the first time in my memory, 
visibly and audibly brought Saudi Arabia into the pantheon of 
those that the Iranian Government wants to destroy.
    Mr. Poe. And then let us talk about Saudi Arabia. Iran 
wants to be the big player in the Middle East. Does this deal 
that I have here--does that encourage Saudi Arabia, Turkey and 
Egypt to develop nuclear weapon capability to deter Iran?
    Mr. Lieberman. Yes, well, it sure does, in my opinion, and 
as others have said--General Hayden--it does something else. It 
raises real alarm in the minds and hearts of our traditional 
allies and the Sunni Muslim world and in Israel about whether 
the U.S. has changed its traditional alliance relationship with 
those countries and now is either tilting toward Iran or at 
least pulling back to a kind of neutrality.
    And if this agreement is allowed to go into effect I think 
one of the great imperatives for the U.S. is to do whatever it 
can--it is going to be hard--to reassure the Muslim Arab 
countries, the Sunni Muslim countries, and Israel that we are 
still with them.
    Mr. Poe. And may I have unanimous consent for one more 
question? General, this question--I.C.B.M.s--when Iran gets 
I.C.B.M.s what would be the purpose and intent and where would 
those I.C.B.M.s be able to go to from Iran?
    General Hayden. Well, by definition the `I' is truly, as 
the Secretary of Defense and the chairman said, means 
intercontinental and as the chairman pointed out, those kinds 
of weapons have no real military or even coercive political 
utility.
    They just have a high explosive warhead on it. Doesn't 
necessarily have to be nuclear but it has to be a weapon of 
mass destruction and, of course----
    Mr. Poe. Where could they go?
    General Hayden. Well, if they are an intercontinental 
ballistic missile they can reach North America.
    Mr. Poe. They could even reach Texas?
    General Hayden. Yes, sir.
    Mr. Poe. All right. I yield back. Thank you.
    Chairman Royce. Thank you. We are going to go to Gerry 
Connolly of Virginia.
    Mr. Connolly. Reaching Texas--now we are talking crazy.
    Thank you all for being here. What a stimulating and 
challenging conversation and I think we Members of Congress 
face a very challenging vote sometime probably in September.
    And Senator Lieberman, welcome back to your home. I must 
say, Senator Lieberman, I am troubled by things you have said 
here today.
    You agreed with Congressman McCaul--you said you agree with 
everything he said. One of the things he said was why engage 
with Iran at all. Do you think it was a mistake to engage with 
Iran at all?
    Mr. Lieberman. Thanks, Congressman, for welcoming me back. 
I am probably too reflexively effusive toward anybody who is a 
chairman of a homeland security committee. It is a bias I have.
    On that particular point, I don't. I think I have said 
that. I didn't oppose the negotiations. I mean, I did not 
oppose the negotiations. I thought it was encouraging that the 
negotiations were occurring. It is much preferable to have a 
peaceful resolution to this conflict. But what I am saying this 
morning is that I think the result on first look--it just came 
about a few hours ago--is that this deal is not a good one for 
the U.S. or our allies and it is a very good one for Iran.
    Mr. Connolly. Yes, I heard you say that. In fact, I heard 
you counsel us we should vote no. Seems awfully early to do 
that but apparently you have made up your mind.
    Mr. Lieberman. I have.
    Mr. Connolly. You--well, I haven't.
    Mr. Lieberman. No, I understand and I just wanted to share 
that with you based on what was agreed to at Lausanne, which 
was in April, which basically says this will be a temporary 
freeze on the Iranian program if they keep their word and then 
they have the way clear to become a nuclear power.
    Mr. Connolly. I understand, and I think some of the 
questions you raised are absolutely legitimate, as are General 
Hayden's. But I think we have to weigh the alternative.
    Mr. Lieberman. Absolutely.
    Mr. Connolly. We can't pretend that there is a prefect 
alternative if we'd only choose it and I think that is some of 
the--some of the problems--some of the discussion we have 
around here.
    But you also said we could just go back to the P5+1 and say 
we just couldn't sell it--let us start over again and let us 
reengage the Iranians.
    Senator Lieberman, I don't know anybody who believes that 
that has any high probability of success, that as a matter of 
fact the very opposite is likely to happen.
    If we disavow this agreement P5+1 falls apart and Iran 
races, not walks, to accelerate its nuclear development program 
and they are not about to come back to the table. Surely, you 
would at least concede that is just as likely as the scenario 
you laid out?
    Mr. Lieberman. Well, I don't know. I mean, I actually agree 
with what Ambassador Burns said here, that if the agreement is 
rejected that Iran will not rush to build a nuclear weapon. 
They will retool their program.
    But they won't do it because they will worry that either 
the U.S. or Israel, if there is clear intelligence showing that 
they have broken out to a nuclear weapons capacity, that the 
U.S. or Israel will attack them militarily and they don't want 
that.
    Mr. Connolly. I take your point and that is one thing we 
can consider. But surely there is a chance that is not what is 
going to happen and when we are thinking about voting we have 
to weigh those risks.
    Mr. Lieberman. Absolutely. Look, this----
    Mr. Connolly. And at least the agreement in front of me 
limits the risk. It is a completely unlimited risk--you may be 
right they won't do that.
    But what if you are wrong? What if, in fact, they will go 
down? There is a hard-line element, as you pointed out, in 
Tehran that would be licking its chops to see this agreement 
fall apart.
    Mr. Lieberman. I tell you, I think that all the elements in 
Iran want this agreement because it is so good for them 
economically and it strengthens their position in the Middle 
East.
    Doesn't do anything to stop them from supporting--in fact, 
helps them support their proxies throughout the region more 
than they are now.
    Mr. Connolly. Senator Lieberman----
    Mr. Lieberman. But, you know, Congressman, again, I just 
want to say I am going to agree with you that I can't predict 
what will happen.
    I can't predict with certainty any more than anybody can 
what will happen if Congress rejects the agreement. I can just 
say that from what I have seen this morning and based on what I 
saw come out of Lausanne in April, this agreement has more risk 
for the U.S. and more reward for Iran than I hoped it would.
    Mr. Connolly. One final point. By the way, I would just 
note for the record actually there were hardline elements 
protesting these negotiations in Iran.
    I do not agree with you that there is unanimity of opinion 
in Iran that this is a great deal for Iran. I think the 
evidence suggests otherwise.
    But you also in your statement earlier said this will 
strengthen the hard line in Iran, freeing up resources that 
they can use for bad things.
    Would you at least concede that, again, there is an 
alternative scenario in which actually that is not what 
happens. It actually reinforces the Rouhani element and others 
that engagement with the West actually produces good economic 
things for us and we should do more of it.
    Isn't it at least worthy of conceding that also could be 
true?
    Mr. Lieberman. It is possible. It is. But I think much more 
likely is that the billions of additional dollars that the 
Iranian Government and economy will get will be used by the 
IRGC, which is, as I said earlier, the Ayatollah and the IRGC 
are the powers in Iran and they will be the ultimate 
beneficiaries of this additional money, not the moderates. I 
wish the moderates were. But I don't believe they will be.
    Mr. Takeyh. Can I just comment on one thing, Congressman 
Connolly?
    Mr. Connolly. Yes, certainly.
    Mr. Takeyh. On the issue of what happens if Congress 
rejects this deal, I went to college in the 1980s and it was 
possible at that time to major in something called arms 
control.
    Mr. Connolly. You are such a young man, Dr. Takeyh.
    Mr. Takeyh. And I have to say that for a while I did, and I 
have gone back to all those arms control. It happened all the 
time. SALT I, SALT II were repeatedly renegotiated--various 
provisions of it--because of congressional objections.
    So Senator Lieberman's idea that upon this approval the 
United States administration has to go back and renegotiate is 
actually the way arms control typically happened with the big 
bad Soviet Union.
    Second of all, let me just play out the strain that has 
been put here. Let us say the United States disapproves this 
agreement, overrides the President's veto and the entire 
international community blames the United States, becomes very 
censorious and Iran begins to develop its capacities and rush 
toward a bomb.
    Surely, the international community will not countenance 
that. They may think Americans were irresponsible on the whys, 
injudicious, intemperate for destroying the deal.
    But if they have seen Iran edge toward some sort of a 
weapons threshold surely they would rejoin the United States in 
imposing some sort of a measure to prevent that, I would 
imagine.
    Mr. Connolly. My time is up.
    Chairman Royce. Yes. We will go to Matt Salmon of Arizona.
    Mr. Salmon. Thank you. Senator Lieberman, during your time 
as a Senator you were afforded the opportunity to vote on a few 
treaties, I suspect.
    Why do you think that the administration pursued this as 
more of a political agreement than a treaty? What was the 
rationale for that? Something--I mean, I have heard several 
times today that this is probably the most important decision 
Congress has weighed in on, some have said, in the last 30, 40 
years. Some have said in the last 50 years.
    With that important of a decision why would it be pursued 
as a political agreement rather than a treaty?
    Mr. Lieberman. So--oh, you mean literally?
    Mr. Salmon. Yes.
    Mr. Lieberman. Well, I don't think the administration, if 
they were here, would say it is a political agreement but they 
would say it is a diplomatic negotiation and not a treaty.
    I will tell you myself, and this is a closed issue, that 
what is on the line as a result of this agreement between the 
P5+1 and Iran is much more consequential than any treaty I was 
asked to vote for or against in my 24 years in the Senate and, 
of course, if it was considered a treaty then it would require 
two-thirds to pass, not the other way around.
    But the President, under the Constitution and established 
court decisions, has the clear right to make the decision he 
did. This is not a treaty but it is an international agreement 
and it has to meet different standards in Congress.
    Mr. Salmon. I think that many of the cynics believe that 
the reason is because the President could have never succeeded 
in crossing that two-thirds threshold in the Senate. And given 
the fact that, as you said, you have voted on treaties that had 
far less consequence than this document.
    General Hayden, you stated that the inspections have become 
a political, not a technical issue. And so one of my questions 
is that whether you believe the Obama administration and its 
P5+1 partners would ultimately make the political decision to 
call out any violations of the agreement, I mean, whether they 
are technical in nature or small in nature or large in nature, 
do you think that the administration, who is kind of staking 
its whole reputation on this agreement would have the political 
will to call out any infractions and make them public, knowing 
that the political ramifications could be quite stark?
    General Hayden. You bring up a great point, Congressman. It 
seems maybe even a little counterintuitive because we are all 
concerned about Iranian cheating.
    But once the agreement goes into effect, the burden of 
proof on--well, let me just go back into my previous life and 
walk into the Oval Office and say, well, you know, Mr. 
President, that treaty that was so important to both you and to 
the country, I think these guys are violating it.
    The time I would need and the body of evidence that would 
be required to turn that into political action is the dynamic 
we used to call in the business the dynamic of the unpleasant 
fact.
    It takes always more evidence and more time to generate 
action. But beyond that, though, Congressman, that is just 
inside the American bubble. Look at it from the P5+1.
    Mr. Salmon. Right.
    General Hayden. And how many other folks have a real vested 
interest in not admitting the violations have taken place. And 
so I am really concerned about the managed access regime since 
it will be at the political and not the technical level.
    Mr. Salmon. Well, and the snap back, so to speak, whether 
it is a snap back of our sanctions or a snap back of 
international sanctions has immense financial implications to 
many of these countries involved. And so the likelihood that 
they would speak out of a violation--I am worried that those 
violations will just be swept under the rug and that will never 
even see the light of day. As described, I cannot and I will 
not support this deal. Iran has proven time and time again it 
can't be trusted to meet international obligations and 
agreements.
    I believe this administration is naive to suggest that the 
hundreds of billions of dollars Iran will gain access through 
this agreement will not be used to continue the proliferation 
of terrorism across the globe. On the contrary, those terrorism 
efforts will only get better funded.
    And furthermore, that despite the President's rather bold 
statement this agreement will ensure that the Islamic Republic 
of Iran will not develop a nuclear weapon, in reality it puts 
them on a path toward legitimately developing and possessing a 
nuclear bomb in just 10 years. And I am wondering, this 
administration has had a penchant for doing things that only 
have effect during or has a shelf life during his 
administration with no thought of consequences to the hereafter 
to our children and our grandchildren.
    I think that this is a frightening deal and it also didn't 
address the Americans that remain hostage in Iran. In fact, I 
am really disgusted that they weren't even really front and 
center in any of the negotiations. They were sideline comments, 
at best. For all the reasons stated above, I cannot support 
this deal at all and I yield back the balance of my time.
    Mr. Wilson. Thank you, Congressman Salmon. We now proceed 
to Congressman Brian Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman, and I too want to 
thank the panel. You have been very professional. You have a 
body of knowledge individually and collectively that is 
invaluable to our deliberations on this issue.
    You know, a lot has been talked about the nuclear 
infrastructure--centrifuges, the proliferation of them over the 
past 10 years, which is disturbing. This deal cuts them by two-
thirds, which I think is very, very significant.
    Also, the material that is used--the nuclear material. You 
have under this agreement, as I understand it, less than 4 
percent of enrichment of that material, which is a far distance 
from bomb grade material, and then you have the inspections 
process, which I think is important.
    But I don't think enough has been focused on the Iranian 
people and the politics of Iran, which I think are very 
significant here. The military historian David Crist wrote a 
book, ``The Twilight War.'' He says since the 1979 revolution 
there have been seven attempts by either side to improve 
relations and they all failed. And against that history, this 
nuclear deal or anticipated nuclear deal when he was writing at 
the time was uncharted territory.
    And I think when you look at what is going on in Iran 
today, you know, in the last 5 years, their currency has lost 
half its value. There has been 50 percent inflation, meaning 
that whatever you had in the bank prior to all of this was 
worth half and whatever you were buying cost you twice as much.
    Rouhani won an election as a reformist within that context. 
It is not the American projection of what we would view as a 
reformist but, you know, he was pretty vocal about how bad the 
Iranian economy was not only during the election but after he 
won.
    The difference in large part from 1979 to currently Iranian 
officials are turning on each other and I think that reflects 
that in this nation of some 80 million people you have got 
probably 65 million people who are very, very young and want 
normalization with the rest of the world. And then you have the 
hardliners made up of the Revolutionary Guard and Quds Forces, 
Qassem Soleimani.
    It has been said here and in many panels previously what a 
destructive force he is relative to stability in the region 
with, you know, his work in being on the ground in Iraq 
directing the Shi'a militias, saving Bashir al-Assad in the 
11th hour and their support of Hezbollah.
    But because of the deteriorating economic situation in Iran 
the Quds Forces and the Revolutionary Guard benefit. Why? 
Because they control all the smuggling, which is made necessary 
by the horrific situation economically in Iran.
    I am just here to say that, you know, I think this 10-year 
period is very, very important because really nobody knows with 
certainty what will happen. But what in fact could happen is a 
normalization with the rest of the world, the promotion of a 
more diversified legitimate economy in Iran, could in fact 
undermine the current regime and produce the kind of changes 
that the vast majority of young Iranians want. And just kind of 
wanted your thoughts on that.
    Mr. Takeyh. I think some of your diagnosis is correct in 
terms of the notion of population estranged from the regime and 
the question is the effect of this particular agreement on the 
regime.
    I think whatever the life span of this Islamic Republic may 
be, and I do think there is a termination date, has actually 
been extended by an agreement that legitimizes its program and 
leads to infusion of economic resources.
    You can make a case, and frankly, quite a good one, that 
the longevity of the Kim dynasty in North Korea has had 
something to do with its possession of a nuclear weapon and 
attempt to leverage that in terms of gaining tribute from the 
international community. And so I----
    Mr. Higgins. But North Korea wants--they love their 
isolation. They don't want anything to do with the rest of the 
world.
    Mr. Takeyh. Neither does the Iranian regime at this point 
at the level of institutional arrangements.
    Mr. Higgins. Yes, but the--but, again, I think what is 
going on here is there is a dichotomy within, you know, the 
politics of Iran and there is a significant and growing 
population that wants normalized relations with the rest of the 
world and wants to see that economy unleash the potential of 
the Iranian people.
    Mr. Takeyh. I think you can say the exact same thing about 
North Koreans. I don't think they want to live in this hermitic 
kingdom.
    Mr. Burns. I would just say that you can't compare North 
Korea and Iran in this situation. Iran is not a monolithic 
political culture. There is a very strong reform movement.
    Demographically, the young people are in the ascendancy. 
They are a trading culture. They are entrepreneurial. They want 
to be connected with the rest of the world and I think if you 
are looking for change and you want to build a case, that is 
the case that you would make. So I agree very much with your 
comments.
    General Hayden. Congressman, I think what you've led on is 
quite plausible. I don't think it is likely but it is quite 
plausible. Clearly, the Ayatollah has decided that this 
agreement will not facilitate regime change. Otherwise, he 
would not have signed it.
    Mr. Lieberman. I agree--plausible optimistic scenario. I 
wish it were so. I think not likely because I think this 
agreement strengthens the current Government of Iran, which is 
the Ayatollah and the Republican Guard.
    But the hope here but we have never really, as America 
supported it, is they clearly, whatever the numbers are, there 
is a very significant number of the Iranian people who would 
like to be freed of this fanatical regime. Unfortunately, this 
regime will not let go of power and in the event of an uprising 
is more likely to respond the way their proxy, Assad, did in 
Syria, which is to turn their weapons on the people.
    Mr. Higgins. Okay.
    Mr. Wilson. Thank you very much. We now proceed to 
Congressman Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman. Senator Lieberman, does 
that mean that you are pessimistic about peace in our time when 
it comes to Iran?
    Mr. Lieberman. Yes. I must say I am--if my wife were here 
she would say that I am an optimist by nature and I am, but I 
am pessimistic about peace in our time with Iran because I 
don't see any fundamental change in their radical ideology and 
their aggressive support of terrorism.
    Mr. Issa. Ambassador Burns, I normally agree with a great 
deal of what you come up with from scratch yourself, based on 
your experience. But in this case, I am going to ask you 
questions more related to the deal.
    The distinguished Senator--once he left office he is by 
definition extremely distinguished--would not be considered to 
be a dove. So let us view this as doves.
    If this is the Chamberlain-esque appeasement that is going 
to work, let us review the next 10 years. Under the agreement 
with the sunset clause, during the next 10 years incrementally 
Iran is, clearly, going to have more money, more access to 
weapons, more freedom of movement than they would if we did 
nothing at all under the current sanctions. Isn't that true?
    Mr. Burns. Congressman, there are tradeoffs here.
    Mr. Issa. No, no. I don't want tradeoffs. I just want 
answers. Isn't it true that under this agreement there will be 
a gradual easing that will give Iran access, almost immediately 
to some, over time to the others, but over the next 10 years 
they will have access to more money, the ability to buy weapons 
and the ability to continue developing at least the nonweapons 
portion of their nuclear ambition, correct?
    Mr. Burns. And my answer is their nuclear program is going 
to be frozen for 10 years. They are going to be set back.
    Mr. Issa. Okay. And I appreciate your talking points and I 
know you were brought here with talking points. I would just 
like you to answer my question. I am trying to be very, very 
proactive here and positive.
    Clearly, this agreement does let them have access to money. 
It will let them have access in 5 years or less to large 
amounts of conventional weapons that they already have a lot of 
and have been providing to Hamas and Hezbollah. These are all 
sort of the gives in this give and take. So the real question 
is if they are going to have a phase-out in 10 years from now 
and, by the way, they clearly do continue to get to work and to 
use nuclear materials for purposes nonweapons related.
    So they are going to continue to know more about nuclear 
during those 10 years even if they don't cheat on the program. 
That is in the base of this.
    The question I have to you is very simple. Ten to 15 years 
from now under this agreement, assuming that the sunny side 
scenario that they simply break out in peace and love for their 
neighbors and democracy, assuming that happens we will be 
safer.
    Assuming it doesn't happen, isn't it true that Iran will be 
more able to build a nuclear weapon and to wage war if they 
choose to 10 years from now? From where they are today, 10 
years from now they will be able to do that with more money and 
no sanctions under the current agreement. Isn't that true? And 
that is a yes or no, please.
    Mr. Burns. I was asked to testify here and to give you my 
best perspective. I tried to convey a sense of how difficult 
this is, how complex it is.
    Mr. Issa. Okay. Well----
    Mr. Burns. And I wasn't brought here with talking points. I 
came on my volition. My view is----
    Mr. Issa. Okay. I appreciate--Ambassador, I appreciate 
that.
    Mr. Burns. My view is that we can stop them from becoming a 
nuclear weapons power 10 years from now if the President at 
that time is tough minded enough to do that.
    Mr. Issa. Okay. Well, and then that brings up sort of the 
history of appeasement of the Soviets. Jimmy Carter forgave 
them their debt, gave them wheat that they put the hammer and 
sickle on and told their people it was Russian wheat, not U.S. 
wheat.
    And then Reagan took a different tact and every President 
has that ability. But General Hayden, let me just go through 
some factual ones. Ten years ago, you were in the 
administration, correct?
    General Hayden. Right.
    Mr. Issa. Ten years ago, is it true, without disclosing any 
classified information, that Iran was behind weapon 
enhancements in Iraq that led to Americans dying on the fields 
in Iraq 10 years ago?
    General Hayden. I actually told National Security Advisor 
Hadley that it was the policy of the Iranian Government 
approved at the highest levels of that government to facilitate 
the killing of American and other coalition soldiers.
    Mr. Issa. Twenty years ago, without disclosing any 
classified information, to your understanding is it true that 
Iran played a critical part to the U.S. airmen who were killed 
in Saudi Arabia?
    General Hayden. That is my understanding.
    Mr. Issa. Thirty years ago--32 years ago--is it true that 
Iran, through its precursor to Hezbollah took an active hand in 
the killing of the Marines in the barracks in Beirut or had a 
participation in support of?
    General Hayden. I think that is true, Mr. Chairman, but I 
don't have the personal knowledge to give that answer to you 
with confidence.
    Mr. Issa. Well, I chose those questions--and I will 
summarize, Mr. Chairman--because 30 years ago Iran, clearly, 
was promoting bad activities on the streets of Beirut including 
kidnapping and so on. This was when they were a 5-year-old 
government. Twenty years ago Americans died for sure in no 
small part because of Iran's hand. Ten years ago Americans were 
dying.
    So when we look at 10 years before they get an outright go 
under this and their ability to have the materials to suit 
their ambition, my only question to all of you--and General 
Hayden, if there is only time for one it would be you--if they 
were doing this 30 years ago including kidnapping on the 
streets of Lebanon, 20 years ago they were killing Americans in 
Saudi Arabia, 10 years ago Americans were dying on the 
battlefield of Iraq, why do we believe that 10 years from now 
anything will really be different, based on your history in 
intelligence, General?
    General Hayden. And to bring it more up to date, Mr. 
Chairman, 3 years ago they were prepared to explode an IED in a 
restaurant in Georgetown to kill the Saudi Ambassador. And so I 
don't have faith in behavior change of the government.
    Let me put it another way. I have hope, all right. But I 
don't know that we can base policy on that expectation.
    Mr. Issa. Hope is not a strategy. Thank you. Thank you, Mr. 
Chairman.
    Mr. Wilson. Thank you, Congressman Issa. We now proceed to 
Congresswoman Grace Meng of New York.
    Ms. Meng. Thank you, Mr. Chairman, and thank you to all of 
our esteemed panelists for being here today. I will state at 
the outset that while I will reserve final judgment on the deal 
until I am able to read it through completely, I am deeply 
concerned and disappointed by what appears to be in its terms.
    For the last couple of months, I have advocated that we 
provide the 33,000-pound bunker buster bombs to Israel and the 
planes to deliver them. Now we have a deal that neglects in any 
way to address Iran's providing arms and support to terrorists.
    Furthermore, we have a deal to our surprise that will allow 
for the lifting of the arms embargo against Iran. In light of 
all of this and the significant deterrence that would be 
created by providing Israel these weapons, do you support the 
administration's unwillingness to provide Israel with the 
33,000-pound bunker buster capability, which is totally outside 
the four corners of the deal? Just like to hear from anyone.
    Mr. Burns. I actually support the administration's position 
on this. Obviously, I support the security of Israel. But I 
think in this instance if force had to be used against Iran it 
should be by the United States.
    We are much more capable. We would have much greater 
legitimacy internationally, given the fact that we have been 
leading this coalition and that we have been at the negotiating 
table.
    I fear that if Israel used force ahead of the United 
States, and I don't think it would be as effective militarily 
and politically. It would be difficult for the Israelis and for 
us. So I would rather see the United States, if we have to 
force, be the one that does it.
    General Hayden. I am kind of in the same place, 
Congresswoman. If we empower the Israelis to do that and if 
they do that I think we have given another nation the ability 
to put us at war. And so I agree with Ambassador Burns.
    Can I just draw down one additional layer? A question I 
genuinely have, and I will be a little oblique here and not 
suggest anything behind the screen, it is obviously against our 
policy that Israel conduct an overt strike against the Iranian 
nuclear system.
    What are our views and what are we prepared to do if Israel 
attempts covert action against the Iranian nuclear program and 
what will be our policy prescription in our relationship with 
Israel with regard to that question?
    Mr. Lieberman. Congresswoman, thanks for your statement and 
your question. I have a different point of view. I think, 
particularly if this agreement announced today is not rejected 
by Congress and goes into effect, the willingness of the United 
States to provide Israel with the so-called MOP--the big bunker 
buster--will be part of a necessary strategy to regain the 
confidence of the Israelis.
    Frankly, I think it will have--even though I agree that if 
military action has to be taken against Iran because it has 
taken a nuclear breakout, it is much preferable for many 
reasons that the United States take that action.
    But I do think if this agreement is not rejected by 
Congress and goes into effect, the willingness of the United 
States to give the big bunker buster bombs to Israel will have 
a deterrent effect on Iran.
    It will encourage Iran to keep the agreement because I 
think, frankly, Iran has less confidence that the Israelis 
won't take military action against them than they do that we 
won't take military action against them.
    Mr. Takeyh. I will just add one thing to that. It seems to 
me that if you are looking at this agreement as the best means 
of safety and security of Israel and stability of the region 
the best way of doing it is negotiating a stringent arms 
control agreement.
    To me, transference of such munitions in the aftermath of 
an agreement that is so deficient where you have to transfer 
such weaponry is attempting to mitigate the consequences of a 
deficient deal.
    Mr. Wilson. Thank you, Congresswoman Meng. And we now 
proceed to comments from Randy Weber of Texas.
    Mr. Weber. Thank you. I hope to have some pretty simple 
questions for you all. Do you all agree that if this agreement 
goes into effect that money will ultimately find its way to 
Hezbollah? Yes or no.
    Mr. Lieberman. Yes.
    Mr. Weber. Pretty much all agree that that will happen. So 
how much of that money is acceptable? One million? Five 
million? How much? Any--will anybody give us a value?
    Mr. Lieberman. Well, of course, I would say none.
    Mr. Weber. Ambassador? You would say none as well? Okay. 
Doctor? Okay, good.
    So Ambassador Burns, you said that you wished Obama's war 
of words with Israel would stop and that they would make up, to 
use your words. In your estimation, which is worse--Obama's war 
of words with Israel or Iran's hateful rhetoric toward the 
United States and Israel?
    Mr. Burns. Obviously, what the Iranians have done in 
threatening Israel is the problem here. President Obama is not 
the problem and the----
    Mr. Weber. Okay.
    Mr. Burns [continuing]. And the difficulties between 
President Obama and Prime Minister Netanyahu are two-sided and 
they are both responsible.
    Mr. Weber. No, no. I just want to get you on record saying 
the Iranian's rhetoric, spewing of hate, needs to stop.
    So there has been talk about if the veto is sustained what 
would happen. Would you all agree with me that we--the 
President said in his remarks this morning that we negotiated 
from a position of strength and power--something to that 
effect.
    But would you all agree with me that had we gone in there 
with these seven tenets--number one, release our hostages; 
number two, halt all enrichment--six tenets--and do away with 
the centrifuges; number three, give the IAEA unfettered 24/7 
access anytime--24/7 365; number four, stop exporting 
terrorism--make sure that Hezbollah doesn't get any of that 
money; number five, stop the rhetoric toward Israel and the 
United States; and number six, prove their sincerity of wanting 
to rejoin the world community by exhibiting this behavior for 1 
or 2 years or more--would that have been a position of strength 
from us--for us to negotiate from, Senator?
    Mr. Lieberman. Well, sure. I mean, I think--and again, I 
wasn't there and it is too easy to say this from this 
perspective but it felt to me--look, we are a great power 
militarily, economically, culturally, every way.
    Mr. Weber. Let me move on to General Hayden. Pardon the 
interruption. General, would that have been a position of 
strength?
    General Hayden. It would have been a position of strength. 
But the premise of our negotiation was to narrowly focus on the 
nuclear question.
    Mr. Weber. Okay. Ambassador, a position of strength if we 
required those six items?
    Mr. Burns. I am confident that President Bush and President 
Obama started there. But that is not how negotiations work.
    Mr. Weber. They did--they did--John Kerry told me himself--
I asked him about the hostage release. They were not going to 
make that part and parcel to this agreement.
    Mr. Burns. Now, I was talking about something different.
    Mr. Weber. Okay. I am going with all six of these.
    Mr. Burns. In our conversations with the Iranians, all 
those issues are important. But you can't just insist on what 
you want in the negotiations.
    Mr. Weber. Well, they--forgive me, Ambassador, but I think 
they came to use wanting relief. We didn't go to them wanting 
relief. Doctor, would that have been a position of strength?
    Mr. Takeyh. General Hayden has suggested that the premise 
of these negotiations were to resolve the nuclear issue. I do 
think that both President Bush and President Obama share those 
concerns regarding Iranian sponsorship of terrorism, regarding 
detaining of the American hostages, regarding other activities.
    I do think that that is a shared bipartisan concern and I 
think that President Obama as with President Bush actually have 
found Iranian treatment of our citizens and sponsors----
    Mr. Weber. And I would argue that they are all important. 
We have all heard the old saying talk is cheap. Apparently, it 
is really not because the Iranians are getting hundreds of 
billions of dollars because of their talk. We want action.
    We want them to demonstrate their willingness. So here is 
my question. When we--if we do--if we do override the 
President's veto can we come back then and negotiate from a 
position of strength?
    Mr. Takeyh. I would say that I think, as General Hayden and 
I think Ambassador Burns suggested, going back is going to be 
tough. I am not suggesting it shouldn't happen under some 
extraordinary circumstances. Deficient agreements should be 
renegotiated.
    But I don't think we should minimize the impact. I think it 
can be done but I don't think we should discount the difficulty 
of it--of actually achieving that.
    Mr. Weber. Well, I agree with my colleague, Grace Meng, 
that we need to provide Israel with a bunker buster bomb 
because that may be the one threat that Iran relates to and it 
may also put us pressure to help. I am out of time. I yield 
back.
    Mr. Wilson. Thank you, Congressman Weber. We now proceed to 
Congressman Scott DesJarlais of Tennessee.
    Mr. DesJarlais. Thank you, Mr. Chairman. Thank you, panel. 
I know it is getting to be a long morning. You have been 
sitting there a long time.
    We appreciate all your testimony. I think it has been 
reiterated a number of times today that we feel that this is a 
much better deal for Iran than it is the United States and, 
really, on paper we should have the upper hand in these 
negotiations.
    You know, therefore, if it is our goal to truly ensure 
peace and stability in the region and prevent Iran from 
developing nuclear capabilities, why have we conceded to their 
demands, especially in regard to domestic uranium enrichment? 
General.
    General Hayden. I asked the same questions, Congressman. I 
think a good macro view is that the Iranians needed a deal far 
more than we did and we wanted a deal far more than the 
Iranians did.
    And we have--I think it is fair to say look, I worked with 
Nick in the same administration. This is really hard and there 
were no easy answers. But it does appear to me that we have had 
a series of concessions in order to keep the Iranians still 
interested in the talks.
    Mr. DesJarlais. This may be an easy question for you all to 
answer. But for people listening and watching this hearing, why 
have we not stood our ground and insisted that Iran import its 
enriched uranium just as other countries do such as South 
Korea, Italy, Spain and many others?
    Mr. Takeyh. I think that we moved away from that particular 
parameter, I suspect, quite a while back and maybe even during 
the Bush years. I don't know.
    The parameter that I think we should not have moved from is 
the position of the United States and the Russian Federation 
and the People's Republic of China in 2013 was that Iran should 
have an enrichment program but only a symbolic one that would 
essentially satiate their public diplomacy and public demands 
but not necessarily be misused. I don't know why that position 
was changed in 2013.
    Mr. DesJarlais. I mean, I think it is obvious to most 
anyone if Iran is serious about not obtaining nuclear weapons--
that is the claim they are trying to make in exchange for all 
this money--then they should be able to join 20 or 24 nations 
that are doing the same thing--importing their enriched 
uranium.
    So I think we have really dropped the ball there and it, 
clearly, shows that Iran's intentions aren't peaceful.
    Ambassador Burns, do you agree with the President's 
assessment from April, and to quote him, ``What is a more 
relevant fear would be that in years '13, '14, '15 they have 
advanced centrifuges that enrich uranium fairly rapidly and at 
that point the breakout times would be shrunk down to almost 
zero?''
    Can you please clarify that point for me? Do you or do you 
not support the arbitrary sunset in the agreement?
    Mr. Burns. I think I understood the President saying when 
he spoke in April about the interim agreement that when the 
agreement lapsed in the 10 to 15 year period that is when the 
Iranian--that is when the Iranians could reconstitute their 
program theoretically and that is when the breakout time would 
begin to diminish, as he said, almost down to zero. But I think 
he was--I think he was talking about the period beyond the 
freeze of the first 10 years.
    Mr. DesJarlais. So you think it is a good idea for--I mean, 
do you think then it is a good idea for Iran to have an 
industrial sized nuclear program?
    Mr. Burns. No, I don't think it is a good idea but I think 
that, you know, our President and our Secretary of State have 
to operate in the real world and what is possible and not 
possible.
    I think this is the best deal that they could have 
achieved. I supported it on that basis. But, obviously, it is 
going to take a lot to make it work and we have talked a lot 
about that this morning.
    Mr. DesJarlais. Ambassador, with all due respect, you are 
probably the only member on the panel that is openly expressing 
your support for Obama's deal.
    Yet, in your opening statement, and I don't want to put 
words in your mouth so you can correct me, but you basically 
conceded that you expect Iran to cheat. Is that correct?
    Mr. Burns. I think it is likely that Iran will try to cheat 
at some point. I think that is just an objective statement. 
But, you know, I support it because I know how, having worked 
on this issue in the Bush administration, how difficult and 
complex it is.
    I think our national security will be met and be improved 
by locking them up in a box, freezing them for 10 years, and 
then, of course, any American President, if Iran tried to 
breakout toward a nuclear weapon, would have the right and have 
the capability to stop them through military force. So I think 
the President and Secretary Kerry are to be commended.
    Mr. DesJarlais. I mean, it looks like to me a case of Obama 
legacy building here because from all the discussion we have 
had today this is not a good deal. You are basically taking a 
hope and a prayer hoping that the next President will be like 
Reagan and be able to do something to stop what this deal sets 
up.
    You think they are going to cheat and, you know, right now 
Chairman Royce started this hearing saying that they are going 
to take this money that is unfreezing billions of assets and 
immediately use them to build tunnels into Israel and also give 
them smart weapons to further endanger Israel. Do you think 
that is cheating?
    Mr. Burns. I think that we are going to have a very tough 
time implementing this agreement. But I also think it is the 
best for our national security interests. And I also think it 
is going to be a generational struggle. We are in a long-term 
struggle with Iran and so it is going to be up to both 
Republicans and Democrats to figure out a way to contain them.
    I worry that if Congress disapproves--votes to disapprove--
and then votes to override the President's veto, which the 
President threatened will weaken the United States and weaken 
our position in the Middle East and I worry about that.
    Mr. DesJarlais. And I respectfully disagree and I yield 
back.
    Mr. Wilson. Thank you, Congressman DesJarlais. We now 
proceed to Congressman Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen.
    I don't know where to start. There are so many conflicting 
things here and I want to pick up with Scott. If the goal of 
peace--you know, if we start--the very beginning when this all 
started I remember President Obama saying Iran will not be 
allowed to have a nuclear weapon, period. Twenty-eight times he 
said that--they will not have it. But, again, we see another 
red line drawn in disappearing ink. And now we are at a point 
where we are delaying it for 10 years maybe and I don't think 
it will be 10 years.
    Sitting on this panel over and over again I have heard the 
experts say that Iran has enough material to have a nuclear 
bomb within 5, 6 months to a year. That was 1\1/2\ years ago.
    So I think we have crossed the point of what we tried to 
negotiate. And then Eisenhower said if the goal is peace--is a 
peaceful nuclear program, a civilian nuclear program flourishes 
only through cooperation and openness. Secrecy and isolation 
are typically signs of a nuclear weapons program.
    And a pessimist who--this is something I read the other 
day--a pessimist who doesn't think peace will occur in the 
Middle East is an optimist that has studied Middle East 
history. You know, I think it is pretty obvious what is going 
on there.
    Ambassador Burns, you were saying that we can't see into 
the future but, you know, maybe the Iranian people will rise 
and change this regime. They tried that in 2009. We didn't 
assist them. As Senator Lieberman said, we have in the past.
    We let the uprising happen. Do you think if Iran gets a 
nuclear weapon--and my prediction is it will be between now and 
10 years from now they will have one. They have all the 
elements for that. We know they have detonated a nuclear 
trigger device.
    Do you think that there will be more allowing their 
citizens to rise up and have regime change or change their 
politics?
    Mr. Burns. Well, I will just answer your--it is a good 
question--I would answer it just in two points. One is I think 
it is not at all probable that Iran will achieve a nuclear 
weapon in the next 10 years. After that, then I think the 
calculations change--first.
    Second, I think regime change is desirable. I would like to 
see a change in the regime to a democratic system.
    Mr. Yoho. It doesn't matter what we think. It is what the 
Iranian people----
    Mr. Burns. But I don't think that we have the capacity to 
produce that change on our own.
    Mr. Yoho. Not now we don't. There is an old proverb I read 
a long time ago and it said that if you want to see one's past 
look at their present situation. It tells you what their past 
efforts were, what they invested in, what their habits were.
    And you were saying that we can't predict what is going to 
go on in Iran in the future. If you want to see one's future, 
look at what they presently are doing--what they are investing 
in, their habits.
    And I see a country that is promoting terrorism, shouting 
``Death to Israel, death to America,'' propping up the Syrian 
regime. I can see their future and it is not a healthy one and 
they are going to be more emboldened with the nuclear weapons.
    Let us see. I agree with Senator Lieberman in that you were 
stating that, you know, this is a bad deal and I said last 
week, you know, being a veterinarian if it walks like a duck, 
quacks like a duck, it is a duck.
    This is a bad deal. We need to walk away from the table and 
then--and the reason I say that, and correct me if I am wrong, 
because if we wait and other countries invest into Iran--you 
know, the economic development that they are seeking--other 
countries that go in there, the P, if we wait 2 or 3 or 4 or 5 
years and they have that economic development, what is the 
likelihood of the snap back, which is a fictitious condition, 
of that happening if we wait 5 years versus if we walk away 
from the deal now, say the sanctions are back in place and we 
can't sell it to the American people? Senator.
    Mr. Lieberman. Well, it is going to be harder in 3 or 4 or 
5 years of course, I hope that what you described happens, that 
we walk away.
    But it is clear that the administration is not going to 
walk away voluntarily and therefore the only way that the U.S. 
walks away is if Congress exercises its authority to reject 
this agreement and then overrides a veto.
    General Hayden. Congressman?
    Mr. Yoho. Yes, sir.
    General Hayden. I just had one very quick thought. We have 
talked about what happens if and so on. I would offer you the 
view that it is a very defensible proposition that absent a 
nuclear detonation in Iran it will be more difficult to 
reimpose sanctions in 5 years than it will be to sustain some 
sanctions if we turned our back on this agreement.
    Mr. Yoho. Yes, sir.
    Mr. Burns. I would just like to say, Congressman, if we 
walk away now then we will have less leverage on the Iranians 
and they will have a nuclear program without restrictions 
compared to all the restrictions they are going to be put under 
for the next 10 years. That is not a good deal for the United 
States.
    Mr. Yoho. But we were talking about Iran has always skirted 
the restrictions. You look at the U.N. resolutions and the 
sanctions--they have not lived up to those.
    They have been playing the cat and mouse game for over 30 
years and what I see is an administration that is incompetent 
on this agreement and I think Iran has done a great job and, 
you know, time will tell.
    But I think we should prepare for detection in the future 
and put the money into research and development and find out 
where the nuclear material is--there's technology out there--
and prepare for the day they do have nuclear arms because they 
are going to have one and we should prepare our allies with 
that and we shouldn't delay. I yield back. Thank you.
    Mr. Wilson. Thank you, Congressman Yoho. Now Congressman 
Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, I ask 
unanimous consent that Representative Jackson Lee be allowed to 
ask questions after all committee members have had the 
opportunity to participate.
    Mr. Wilson. And we have a dilemma in that Congressman 
Zeldin just came and as such a gentleman I know he would want 
to proceed with Congressman Sheila Jackson Lee of Texas.
    Mr. Zeldin. Mr. Chairman and Mr. Deutch, I would be very 
happy to yield to the gentlelady, Ms. Sheila Jackson Lee, for 
her remarks and questioning.
    Ms. Jackson Lee. I think our witnesses are going to see the 
ultimate politeness and courtesy and I would only say to the 
chair and ranking member thank you for your courtesies and if 
it is appropriate for this member of the committee to go 
forward please tell me how I should proceed. I am more than 
happy to follow protocol. If I have been given the time I will 
handle it in the appropriate manner.
    Mr. Wilson. Congresswoman, the time is yours.
    Ms. Jackson Lee. You all are extremely courteous and so are 
these very patriotic witnesses who have come today. I serve on 
the Homeland Security Committee and Judiciary Committee but I 
am an adopted daughter of this committee and they have been 
very kind when I have had the opportunity to come, having 
worked a lot in the Mideast and worked with Congressman Deutch 
as well as Congressman Wilson and as well as the chairman of 
the full committee and the ranking member. Let me thank them 
for their courtesies.
    Let me start both with, before I go to Senator Lieberman 
who I am so delighted to see a fellow alum--start with General 
Hayden and Mr. Burns--Secretary Burns, thanking them for their 
leadership.
    The first thing that we heard as we woke to for many was a 
breakthrough and exciting news but appropriately cautioned 
because of the many friends we have in the Mideast was that 
this would begin an arms race for our allies, Sunnis, in 
particular Saudi Arabia and I am going to end and just ask 
would you respond to that.
    The second question is that as we were negotiating I was 
leaning toward the spontaneous inspection that would come 
about. I now hear that it is regulated and you are either going 
to be able to go to bases or not go to bases, which gives me a 
concern.
    But if you would answer those two questions. I guess I want 
them abbreviated only because I have others and I just didn't 
want to go on with my questions and I have other questions. 
Thank you so very much.
    General Hayden. Congresswoman, I agree with you. The 
managed access aspect of the inspections I think is very 
disappointing and very problematic.
    With regard to how the Sunnis will respond, I probably 
don't have the confidence to say it is inevitable that they 
will race in the direction of a nuclear infrastructure and a 
nuclear weapon. But I think it is more rather than less likely.
    Ms. Jackson Lee. Secretary Burns? And thank you all for 
your engagement of this long process. I understand, as I have 
been here 13 years plus. But go ahead, Secretary.
    Mr. Burns. I think President Obama's agreement diminishes 
the chance that the Saudis will try to obtain a nuclear weapon. 
It will give them some reassurance over the next 10 years that 
the Iranians are not going to be a nuclear weapons power 
themselves. So that is one of the, I think, advantages of this 
agreement.
    Ms. Jackson Lee. Can I follow up with you, Secretary Burns? 
I understand the agreement sort of lays out either a 10-year 
under-15-year scenario. Is that too short a period of time 
before we might see them--Iran, excuse me--moving toward that 
concept of a nuclear weapon?
    Mr. Burns. I think I would have preferred an entirely 
different set of parameters for this negotiation--an entirely 
different framework.
    But it is the framework that we have not just negotiated 
and I want to see our country succeed. Obviously, we all do. 
And I think that there is a chance for success here.
    But it does worry me. I would have rather have seen 20 
years, 30 years rather than 10, if you ask me.
    Ms. Jackson Lee. And let me follow up with you. The 
collective body politic of those who sat around the table 
having been engaged directly when Secretary Clinton was the 
Secretary of State and you were dispatched to begin these 
discussions over the period of years.
    Do you take comfort in the individual nations that joined 
the United States to be part of the enforcement of this 
agreement and given it more strength for peace for all of us?
    Mr. Burns. Congressman, there are a couple people named 
Burns in Washington.
    Ms. Jackson Lee. Oh, okay.
    Mr. Burns. It is my good friend, Bill Burns, who worked for 
Secretary Clinton.
    Ms. Jackson Lee. Well, take the credit.
    Mr. Burns. I wish I--he deserves all the credit. I worked 
for----
    Ms. Jackson Lee. I saw you looking. I said uh-oh, it is not 
the same Burns. But I have worked with you so long. So go right 
ahead.
    Mr. Burns. I worked for President Clinton----
    Ms. Jackson Lee. Yes.
    Mr. Burns [continuing]. And President Bush.
    Ms. Jackson Lee. Thank you, Bill Burns. Okay.
    Mr. Burns. We should thank Bill Burns. I do think that, you 
know, the choice that we had was and the choice we still have, 
depending what Congress does, is do we want to go it alone or 
do we want to lead a coalition.
    I think in this respect we are--in this case we are 
stronger leading a coalition, keeping the coalition together, 
using the leverage of that coalition to get what we want and to 
see this deal implemented.
    I fear a congressional disapproval would put us out on our 
own. We are very powerful. But the Iranians would profit from a 
breakup of this anti-Iran coalition that the United States over 
two administrations has been able to lead.
    Ms. Jackson Lee. Well, as I asked Senator Lieberman, I do 
not want to the Iranians to profit. I have worked for a long 
period of time on Camp Ashraf and the individuals, Camp 
Liberty.
    I think we have seen each other and continue to want to 
raise this question protecting my friends who believe in 
liberty and peace. And so, Senator Lieberman, how would you fix 
this if you are not seeing this agreement as the way it should 
be?
    Mr. Lieberman. You mean on the specific question of the 
Iranians at Camp Liberty?
    Ms. Jackson Lee. No. I am concerned that I don't give Iran 
too much happiness until they ultimately fix that issue.
    Mr. Lieberman. Right.
    Ms. Jackson Lee. But on this nonnuclear agreement how would 
you move it to a position where you would want it to be?
    Mr. Lieberman. Well, I--the most disappointing--there are 
two parts to this that bother me. The first part was clear from 
the framework agreement in April in Lausanne, which was that we 
were not going to achieve what we originally wanted: The end of 
the Iranian nuclear program in return for the end of sanctions 
against them.
    They were going to promise to freeze for 10 years if they 
keep the promise and then after that we basically legalize 
their path to becoming a nuclear power.
    But as I looked at the agreement this morning with things 
that I hadn't seen before, the most disappointing part of it is 
the inspection part. It is not anywhere, anytime. It is nothing 
remotely like that.
    It allows the Iranians to object, a negotiation goes on 
with the International Atomic Energy Agency. That takes 14 
days. There can be an appeal for 7 days. It is not clear that 
there is a real enforcement mechanism.
    This is the real hole in this agreement and if I had my 
druthers that is the part that I would dramatically change.
    Ms. Jackson Lee. I am going to concluding remarks because 
this committee has been very courteous to me and simply thank 
them for extending me this time and say in conclusion that I 
want Congress to take its task seriously and to immerse itself 
in many different committees--with Judiciary, Homeland 
Security, Foreign Affairs and others--in the importance of this 
agreement and peace in the Mideast.
    I would finally say I want to thank this committee for its 
concern of my friends in Camp Liberty and Camp Ashraf. They are 
still not where they need to be, treated with dignity, allowed 
to get medical care, and as we proceed I think it would be 
appropriate to continuously raise these issues with Iran who 
seems to want legitimacy--world legitimacy and they cannot get 
world legitimacy by the inhumane treatment, putting aside the 
nuclear efforts that this administration has worked so 
extensively on and I want to congratulate President Obama for 
his extensive efforts.
    But if they are going to get world notice for being a 
country that is in the world arena with dignity for all of its 
persons then they are not at that place right now, in my mind, 
because of the horrific treatment of some of their own citizens 
and particularly those that are fighting for justice and 
equality and freedom over in Camp Ashraf and, of course, Camp 
Liberty.
    So I thank you so very much and I yield back my time. Thank 
you for your courtesies.
    Mr. Wilson. Thank you, Congresswoman. We now proceed to 
Congressman Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman, and I thank the 
distinguished panel for being here as well as your service to 
our country in many different ways including being here this 
morning.
    I know that you have been here for a few hours. It is now 
afternoon and I just want to say thank you as well for being so 
generous with your time with the committee on such a very 
timely and important appearance.
    I don't need to wait 30 days or 60 days to decide that this 
is a bad deal, that it is an unacceptable deal. It is okay to 
be open minded. It doesn't mean that a requirement to be open 
minded is that we are naive.
    It is a bad deal, and I think about--I have a really 
important question for you. You have worked for Presidents, 
just a tremendous amount of generations of administrations over 
the course of your time in government.
    The next President comes in, whoever the person is--
Republican, Democrat, doesn't matter. That person decides that 
something that wasn't even part of these negotiations they are 
motivated to tackle.
    So just briefly recapping, some of the stuff that weren't 
even part of the negotiations--Iran overthrowing foreign 
governments, sponsoring terror, financing terror, developing 
I.C.B.M.s, unjustly imprisoning United States citizens 
including a pastor, a reporter, a United States Marine, 
developing--well, I mean, they are pledging to wipe Israel off 
the map, they are chanting ``Death to America'' in the streets.
    The list goes on. We are handing them the $50 billion 
signing bonus but we are not even giving it to them with 
strings attached that they can't use the money to continue to 
finance terror.
    I mean, these people have blood on their hands from U.S. 
service members who have been killed in Iraq and Afghanistan. 
All this wasn't even a part of the negotiations. So a President 
comes into office, it is January 2017, and let us just say, God 
forbid, that any of these U.S. citizens are still being 
imprisoned or they decide that we need to stop allowing them to 
overthrow foreign governments. We need to cut off the funding 
supply to Hezbollah--whatever the scenario is the next 
President is motivated.
    If we give away all of these sanctions right now, 
tactically what are the options that are left? The reason why 
the Iranians are at the table right now is because the 
sanctions were working. What is the impact of this deal on that 
motivation to tackle all of the other actions we have an issue 
with?
    Mr. Burns. Congressman, we did not have sustained contact 
with the Iranians from 1979 until the autumn of 2013.
    So we had an abnormal relationship. We couldn't actually 
mix it up with them and really get in there and work with them 
and try to move them and leverage them. We have that now.
    Now, the Obama administration made a tactical decision that 
for the life of these nuclear talks they didn't want to 
introduce any other issues. You can argue pro or con whether 
that was the right decision.
    We do have the capacity to talk to them now. Secretary 
Kerry has a relationship of sorts, a professional relationship, 
with the Iranian Foreign Minister and I wouldn't wait for the 
next President.
    I think the Obama administration should take on the hostage 
issue and take on the terrorism issue----
    Mr. Zeldin. Well, what is the leverage?
    Mr. Burns [continuing]. And the regional issue and try to 
do what we can to motivate the Iranians to change their 
positions. It is going to be tough.
    Mr. Zeldin. I mean, but the Iranians aren't--when they 
weren't negotiating with us because they are good actors, they 
are good world citizens.
    These are bad people blowing up mock U.S. warships while 
this is going on--fighting with the Syrians and the Houthis in 
Yemen against us and others. What is the leverage to actually--
other than say, you know, for Obama to go back, you know, a few 
months from now or Secretary Kerry to go over and say, you 
know, pretty please can you stop overthrowing foreign 
governments, what is the actual leverage that is left other 
than asking nicely?
    Mr. Burns. I am not sure I would ask nicely. But I think 
the actual leverage is to strengthen our military relationship 
with the GCC countries--the Saudis and others--to contain 
Iranian power in the Gulf, to close ranks with Israel, 
strengthen that relationship and make it difficult for the 
Iranians to do what they are doing in the Middle East.
    Mr. Zeldin. But why would the Iranians do anything that I 
just said if what they want we are just giving them right now 
with this deal?
    In my opinion, the President of the United States should be 
sitting down at the table with a strong hand, inheriting all 
that good will of generations of Americans who have fought and 
died for this country to keep us free and safe, and with that 
good will and that American exceptionalism say this is 
everything that we want in exchange for $50 billion plus of 
sanctions relief. But all this stuff was left out.
    So I guess what do we have to give the Iranians now that 
the sanction relief--if the sanction relief was met? What do we 
have to give the Iranians as leverage to get what we want out 
of them?
    Mr. Burns. So the decision the Obama administration made 
was to focus on the nuclear issue as the greatest immediate 
danger. I think that was a correct decision.
    Now that that is underway and you have an agreement that 
hopefully will be implemented, we are going to have to build up 
our power and our coalitions against Iran. It is not about 
giving them something they want.
    It is about muscling them and out powering them through 
containment regimes and that is what the United States 
traditionally has done, going back to the Carter administration 
when we said the Persian Gulf was an area of vital concern to 
the United States.
    We should say it again to warn the Iranians about military 
activities, for instance, in that area.
    Mr. Zeldin. And my time is running short here. I appreciate 
that. I think that for the life of the Obama administration or 
at least this particular moment in time no one in the entire 
world, whether it is within the United States or the Middle 
East or elsewhere believe if the President says that the 
military option is on the table that he would actually do it.
    We saw what happened with Syria where there would be 
consequences for using chemical warfare. They used chemical 
weapons and nothing ended up happening. So, you know, the 
President says the only alternative to whatever he agreed to 
was war and the irony about it is that this deal will actually 
result in more instability in the Middle East and cause, you 
know, a nuclear arms race to some degree in that region as 
well.
    I am just concerned that the President has negotiated away 
that leverage that bought the Iranians to the table in the 
first place. America got played and the President was a 
complacent party to it.
    Now, the American public and the representatives in 
Congress should have the final say, not the President with a 
stroke of a pen. An announcement this morning made at the White 
House was filled with falsehoods like 24/7, anytime anywhere 
inspections that aren't real.
    I really do appreciate all of you being here. I am just 
concerned about the future of our relations and--I am sorry. 
General Hayden.
    General Hayden. Yes, just one additional thought, maybe a 
little more aggressive than what Nick just suggested. Live by 
executive order, die by executive order. You are not going to 
lift these sanctions.
    The President is going to use his authority within your 
legislation to lift sanctions based upon his executive 
decision. A future executive can reverse those decisions.
    Mr. Zeldin. I am just concerned that when you get rid of 
sanctions that take years to put into place and then you talk 
about snap back sanctions, when you are working with foreign 
governments and foreign entities it is very difficult to just 
snap them back.
    General Hayden. No, it is. But with regard to our national 
sanctions, you are not going to repeal the law. I think that is 
very clear. And so we will ease those sanctions based upon the 
will of the executive, which can be changed.
    Mr. Zeldin. And I appreciate the general's remarks and I 
would encourage my colleagues in the spirit of that discussion 
of what power Congress has or hasn't or what power the American 
public has or hasn't that we do not accept defeat, that we do 
not accept a bad deal with Iran because of the consequences.
    But I absolutely appreciate the general's remarks and the 
Ambassador and everyone else for being here. I yield back the 
balance of my time. Thank you, Chairman, for being generous 
with me.
    Mr. Wilson. Thank you, Congressman Zeldin, and thank you 
for your military service too for our country. God bless you.
    We now proceed with Congressman Ron DeSantis of Florida.
    Mr. DeSantis. Thank you, Mr. Chairman. Thanks to the 
witnesses. You know, a lot of what goes on here is just we 
puff, we do these hearings. We take meaningless votes about 
really frivolous issues.
    This is really a big vote and a big issue and Congress 
needs to step up and do the right thing for the American 
people. In my judgement, that means stopping the deal. I think 
this is bad for our country.
    I think it is bad for national security. You know, when I 
was in Iraq back in '07-'08 the number one cause of death was 
not even al-Qaeda in Iraq at the time. It was Iran and the Quds 
Force and the Shi'ite militias that they funded and they killed 
hundreds of our service members.
    And yet I am looking through this deal and I notice that 
they are actually relieving sanctions on the Quds Force and on 
Qassem Soleimani specifically. Of course, the $140 billion that 
is a huge influx of cash for the Iranian regime. Is the regime 
going to change? Well, I just looked on Friday, July 10th. The 
regime is sponsoring the protest ``Death to America. Death to 
Israel'' on Quds Day.
    I think that the agreement really enhances Iran's power in 
the region. I think that they are going to emerge from this 
unquestionably the dominant actor in the Middle East and we 
have seen their authority grow over the course of this 
administration.
    I think it is actually good for ISIS because in a place 
like al-Anbar Province where I served if the choice is between 
an Iraqi Government that is backed by a Shi'ite power and 
Shi'ite militias or ISIS, which is at least a Sunni Arab group, 
a lot of those folks, who aren't bad people, they are more apt 
to side with ISIS than to side with the central Government of 
Iraq.
    And so the fear is is that with U.S. policy tilting so far 
in the direction of this dominant Shi'ite power that I think 
you are going to see more recruits now flood into ISIS. So we 
may be killing some of them but there is going to be folks who 
are going to replenish it. The verification, as I read it, is a 
joke. I mean, it is not anytime we want to go in.
    There is a committee, they do this. By the time you 
actually want to see things the offending conduct could be 
concealed. And I think this really turns our back on Israel, 
our most trusted ally in the region. This is a country that 
Iran boasts is a one-bomb country.
    They boast that they want to wipe them off the map and I 
think the relationship that this administration has had with 
the Israeli Government has been a disaster and I don't think 
this is the way that you treat an ally.
    Well, let me ask you this, Ambassador Burns, because I 
think you actually did as good a job--I mean, as anyone I have 
heard of justifying your position. What would be the reason to 
remove sanctions off of Qassem Soleimani and the Iranian 
Revolutionary Guard Corps?
    Mr. Burns. Oh, it is an extraordinarily difficult thing to 
do, isn't it, given that the Quds Force----
    Mr. DeSantis. But I don't understand. I mean, if----
    Mr. Burns. It is because of how the negotiations were 
constructed.
    Mr. DeSantis. So it is just a concession, really having 
nothing to do with the nuke program or does it have something 
to do? Because on the one hand we are told that Iran never had 
military uses for any of this but yet you are removing 
sanctions off folks who are very key players in Iran's military 
complex.
    So the question is is there a relationship there or is this 
a totally unrelated concession about relieving sanctions off 
people who are involved in terrorism? And we have been told 
from administration witness after administration witness 
sitting right where you are that they didn't want to discuss 
terrorism.
    They only wanted to focus on the nuclear negotiations. So 
it is very, very odd to me that that would be in there and 
particularly just because of the blood that they have--the 
American blood that they have on their hands.
    Mr. Burns. Right. And I think that the agreement announced 
this morning is framed such that all the sanctions that were 
passed against Tehran in the Security Council and in other 
places, executive orders, are going to be lifted, whether they 
are directly about the nuclear program or not. So is it a 
problem that the Iranian Revolutionary Guards Corps might have 
more money available to them? Yes.
    It is a problem. It is part of--when I testified earlier, 
Congressman, I just said I support this. I think on balance it 
is the right decision for the United States. But there are 
risks here and there are tradeoffs and some of them are very 
difficult to digest. That is one of them.
    Mr. DeSantis. Senator Lieberman, this influx of cash to the 
regime--is there any doubt in your mind that some of those 
proceeds are going to be used to fund the Iranian terror 
network?
    Mr. Lieberman. None at all. It is hard to conceive of a 
situation where that doesn't happen. How much is spent is up 
to, obviously, the Iranian authorities. The other thing I 
mentioned briefly before you were here, Congressman, is that a 
lot of the rest of the money may go for domestic purposes but 
it will be used to strengthen the position of the current 
radical regime in Tehran and to essentially undercut the 
popular opposition that is there.
    Mr. DeSantis. And getting the cash--is that going to cause 
the regime to change their militant Islamic ideology, in your 
judgment?
    Mr. Lieberman. Getting the----
    Mr. DeSantis. The fact that they are getting these 
concessions. I guess the hope is is that oh, maybe they will 
change. Is there any chance? Would you be willing to bet that 
these mullahs will change their militant Islamic ideology?
    Mr. Lieberman. Right. I would bet that they will not, based 
on everything we have seen and the agreement strengthens their 
hand. In other words, as you have said and, again, as 
Ambassador Burns said, tough choices in our negotiation.
    But basically the negotiation did focus on the nuclear 
program that they have and it is not that we accepted all the 
terrible things that they do but implicitly it was off the 
table. Now, Congress does have a role to play here in the 
months ahead, which is to come back and the administration too, 
really, to strengthen sanctions based on human rights, support 
of terrorism, their treatment of the people in Camp Liberty, 
which is horrendous.
    So that right now I think this message is not only did they 
get a good deal on the nuclear agreement but they are basically 
free to do whatever they want to do in every other part of 
their radical program.
    Mr. DeSantis. Thanks. I yield back.
    Mr. Wilson. Thank you, Congressman DeSantis, and thank you 
too for your military service. We have one final follow-up from 
Congressman Deutch for Ambassador Burns.
    Mr. Deutch. Thank you, Mr. Chairman. Ambassador Burns, I 
just wanted to follow up on that last point since it is a very 
big agreement that we are going to be sorting through.
    But your assessment is that all of the sanctions on the 
IRGC are being lifted as part of this? I just want to make sure 
that I understood correctly what you said.
    Mr. Burns. In my response to Mr. DeSantis' question I said 
that the framework of this agreement is that many of the 
sanctions that were passed under varying authorities--Security 
Council and others--are being lifted as part of the overall 
agreement. There are multiple types of sanctions in here. That 
was my answer.
    Mr. Deutch. Okay. I appreciate that. I yield back. Thanks, 
Mr. Chairman.
    Mr. Wilson. Thank you. As we conclude, I want to thank each 
of you for being here today. Your insight has been very 
helpful.
    We are certainly concerned for the security of the American 
families and you have expressed that and you can see it is 
bipartisan, the level of concern and participation. I am very, 
very grateful for everyone participating today.
    I know that many of us are just so hopeful for democratic 
change actually in Iran.
    With that, we are now adjourned.
    [Whereupon, at 1:48 p.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
